        OFFICE OF INSPECTOR GENERAL


                                   Catalyst for Improving the Environment


Evaluation Report



         Impact of EPA and State
         Drinking Water Capacity
         Development Efforts Uncertain

         Report No. 2003-P-00018


         September 30, 2003
Report Contributors:                          Leah Nikaidoh
                                              Michael D. Davis
                                              Tim Roach
                                              Thane Thompson
                                              Robert Bronstrup




Abbreviations

CFR                    Code of Federal Regulations
EPA                    Environmental Protection Agency
DWSRF                  Drinking Water State Revolving Fund
GAO                    General Accounting Office
GPRA                   Government Performance and Results Act
HSNC                   Historical Significant Non-Compliance
OGWDW                  Office of Ground Water and Drinking Water
OIG                    Office of Inspector General
SDWA                   Safe Drinking Water Act
SDWIS/FED              Safe Drinking Water Information System/Federal Version
T/M/F                  Technical, Managerial, and Financial




Cover: Photo of water tower by EPA OIG.
                                         Table of Contents

Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    2

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         2

Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  4

Results of Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            4

Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         10

Recommendations                   ........................................................                                                    10

Agency Response and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            11

Action Required . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         12




 Appendices
     A        Details on Capacity Development Design and
              Early Implementation Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    13

     B        Details on Capacity Development Performance Measurement . . . . . . . . . . . .                                                 21

     C        Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          25

     D        Agency Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         29

     E        OIG Analysis of Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         47

     F        Report Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           57
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          WASHINGTON, D.C. 20460



                                                                                               OFFICE OF
                                                                                          INSPECTOR GENERAL




                                          September 30, 2003

MEMORANDUM

SUBJECT:              Impact of EPA and State Drinking Water
                      Capacity Development Efforts Uncertain
                      Report No. 2003-P-00018

FROM:                 Dan Engelberg /Signed by Kwai Chan for/
                      Director for Water Issues
                      Office of Program Evaluation

TO:                   G. Tracy Mehan III
                      Assistant Administrator
                      Office of Water


This is our final report on the subject evaluation conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report represents
the opinion of the OIG and the findings contained in this report do not necessarily represent the final
EPA position. Final determinations on matters in this report will be made by EPA management in
accordance with established resolution procedures. The Assistant Administrator for the Office of Water
responded to our draft report on June 23, 2003, and that response is included as an appendix in this
report.

This report identifies issues that EPA needs to address to ensure that, as States continue to implement
capacity development, they provide sufficient managerial and financial assistance to community water
systems. Providing this assistance is vital to the long-term sustainability of these systems, and will
ultimately help systems meet drinking water standards. EPA also needs to have a performance
measurement process to determine if, nationally, the overall capacity, or healthiness, of community water
systems is improving. Without this strategic information, EPA cannot make critical management
decisions to provide resources and assistance to States as the States work to implement their capacity
development strategies. These issues are summarized below and presented in detail in Appendices A
and B.

                                                    1
Purpose

Congress, in passing the 1996 Safe Drinking Water Act (SDWA) amendments, provided funding for
capacity development to meet significant challenges facing community water systems, including aging
infrastructure, underfunding, and meeting drinking water regulations. Capacity development is a way of
structuring drinking water protection programs to assist water systems in attaining the technical,
managerial, and financial (T/M/F) capacity to achieve and maintain long-term sustainability.1 Capacity
development is based on the idea that systems that achieve and maintain capacity will be the best
prepared to meet current and future drinking water challenges, such as new Federal drinking water
regulations and substantial infrastructure needs. Therefore, it is critical that capacity development is
designed and implemented in a manner that will effectively ensure that systems needing capacity
assistance will get this help before ultimately falling into noncompliance.

Since the EPA drinking water capacity development process is relatively new, our national examination
focused on the design and early implementation of this program. Our initial objective was to evaluate
EPA and State formulation and initial implementation of capacity development programs to determine
the extent to which such programs have been formulated and initially implemented consistent with the
specific requirements and overall objectives of the SDWA. Specific emphasis was to be given to
evaluating how States are integrating capacity development, together with other SDWA initiatives and
drinking water program activities, to assist community water systems to consistently achieve the health
objectives of the SDWA. During the course of our work, we identified an additional issue related to
performance measurement. As a result, this report addresses the following two questions:

•   Did EPA and State design of the capacity development strategies ensure that community water
    systems have received T/M/F capacity assistance?

•   How has EPA planned to assess the performance of capacity development initiatives at a national
    level, and how strong is the design for evaluation?

Background

Almost 264 million people in the United States obtain their drinking water from 54,000 community water
systems. These systems vary from very small rural systems to very large systems. While they all share


        1
         EPA has defined the three key capacity components needed for proper operation of a drinking
water system as follows:

    •   Technical: The physical and operational ability of a drinking water system to meet SDWA
        requirements.
    •   Managerial: The ability of the system operators to conduct their affairs in a manner enabling the
        system to achieve and maintain compliance.
    •   Financial: The ability to acquire and manage sufficient financial resources to allow the system to
        achieve and maintain compliance.



                                                         2
problems with aging infrastructure, underfunding, and meeting regulations, small systems have had great
difficulty in keeping up with SDWA regulations. EPA recently estimated that over the next 20 years, the
nation is facing a deficit of nearly $265 billion in resources available to meet projected drinking water
infrastructure needs. At a January 2003 EPA conference on the infrastructure gap, the Assistant
Administrator for Water promoted capacity development investment as a means to help address this
issue.

Congress amended the SDWA in 1996, providing for a variety of initiatives to assist States and public
water systems in providing safe drinking water to the public. Capacity development, the Drinking Water
State Revolving Fund (DWSRF), operator certification programs, and such resources as the
Environmental Finance Centers and Small System Technical Assistance Centers, were instituted to
provide assistance to States and community water systems. Congress established capacity development
with the intent of focusing on those systems most in need of assistance. These were primarily small
systems (serving populations of 3,300 or less). Although small systems make up the majority of
community water systems (46,000 of the 54,000 total systems), they only serve about 10 percent (25
million people) of the population. However, in 2000, small systems accounted for 90 percent of all
systems that had a “History of Significant Noncompliance” (a system violating one or more National
Primary Drinking Water Regulations in any three quarters within a 3-year period).

All three components of capacity development
(technical, managerial, and financial) are critical to the
successful operation of community water systems. EPA
uses the diagram in Figure 1 to illustrate the interrelated
nature of T/M/F capacity. EPA, States, and drinking
water systems house T/M/F expertise in different
program areas at different levels. The success of water
systems’ achieving capacity to run their operations in an
efficient, business-like manner rests on water
system owners and operators being able to effectively
understand, communicate, and coordinate the various
T/M/F needs. States, through the design and
implementation of their capacity development strategies,
have approached capacity development in different
                                                              Figure 1: EPA Diagram on T/M/F Capacity
ways, to meet the unique issues facing their systems.

As detailed in Appendix A, Table A-1, the 1996 SDWA Amendments present four key attributes that
are needed to promote a capacity development process that assists public water systems in attaining
T/M/F capacity. Specifically, a successful capacity development process should be:




                                                      3
•   Flexible so that EPA and States can maximize the use of resources and capabilities to implement
    processes that meet the unique needs of each State.

•   Proactive in identifying and prioritizing those water systems most in need of improving T/M/F
    capacities.

•   Integrated so that the resources of all Federal and State drinking water programs are utilized.

•   Accountable in being able to demonstrate that capacity development helps water systems provide
    safe water to customers.

All four attributes do not need to be present to the same degree for capacity development programs to
be successful. However, we believe that the combined presence of these attributes promotes a capacity
development process that assists public water systems in attaining T/M/F capacity.

EPA’s Office of Ground Water and Drinking Water (OGWDW) is responsible for governing capacity
development as a national program by providing guidance to States, as well as requiring accountability
from States with respect to congressional expectations.

Scope and Methodology

We performed our evaluation in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted our field work from August 2001 to
November 2002. We focused our review on six States: Arizona, Illinois, Massachusetts, Nebraska,
South Carolina, and Washington; related EPA regional offices; and EPA Headquarters. To draw
conclusions about the design and initial implementation of EPA and State capacity development
activities, we collected information from a broad range of sources (see Appendix C, which provides
greater detail on our Scope and Methodology).

Results of Review

We identified two issues relating to our review questions:

•   With assistance from EPA, States designed capacity development strategies that generally met the
    requirements of the 1996 SDWA Amendments. However, EPA and States need to improve the
    continuing implementation of these strategies to ensure that managerial and financial capacity needs
    are being addressed, and EPA needs to improve its oversight of States’ capacity development
    programs.

•   EPA has not developed or implemented a plan to assess the performance of the capacity
    development initiative, and is currently unable to report on the results that the capacity development
    program is having on a national basis.


                                                     4
These issues are discussed below.

Capacity Development Design and Early Implementation Results Mixed

EPA, working closely with States and stakeholders, provided guidance and publications to ensure that
States’ capacity development strategies generally were designed to provide capacity assistance to
community water systems, while providing the States with flexibility to design strategies that met their
individual needs. EPA’s and States’ implementation efforts, however, need to be more proactive,
integrated, and accountable, to ensure that community water systems become and stay “healthy.” When
we assessed EPA and State programs using the four attributes of flexibility, proactivity, integration, and
accountability, we determined that EPA and States have focused on providing technical assistance, and
that more needs to be done to provide the managerial and financial capacity assistance.

All three components of capacity development are critical for community water systems to operate
effectively. States had success with providing technical capacity development that was proactive,
integrated, and flexible. This is to be expected, to a certain extent, since drinking water programs have
historically been technically focused. However, the States had less success providing managerial and
financial assistance to water systems. EPA staff told us the Agency also did not provide sufficient
oversight to States to hold them accountable for ensuring that systems most in need of T/M/F capacity
assistance were being helped. We attribute the lack of accountability to the fact that during the design of
the capacity development program, stakeholders disputed EPA’s authority to hold States accountable
for capacity development through DWSRF withholding.

During our review, EPA staff indicated that there continues to be an overemphasis on technical capacity,
at the expense of managerial and financial capacities. State-level managers identified the lack of
managerial and financial capacities as significant obstacles to systems sustaining technical capacity.
Massachusetts officials stated that all technical capacity deficiencies are caused by managerial and/or
financial problems. Nebraska officials said 70 to 80 percent of their major deficiencies are because of
managerial or financial problems.

State Programs Had High Degree of Flexibility. EPA and States approached capacity
development in a highly flexible manner. Through the 1996 SDWA Amendments, Congress required
EPA to afford States the flexibility to tailor capacity development strategies to meet the varying needs of
their community water systems. EPA promoted flexibility through its capacity development handbook,
guidance, and stakeholder process when designing the capacity development process. The guidance
that EPA produced was the result of a thorough stakeholder consultation process that included State
officials.

States embraced this opportunity to craft strategies to meet the needs facing their water systems. States
used the guidance and materials that EPA developed in conjunction with its stakeholders to create and
implement capacity development strategies for existing systems by October 1, 2000. The flexibility EPA
afforded States is seen in the varied approaches among their capacity development strategies, as shown
in Appendix A.

                                                     5
During our review, EPA officials discussed the difficulties they sometimes faced regarding flexibility. The
EPA Capacity Development Coordinator said simply creating the capacity development guidance had
been a challenge, noting that many of the individuals involved were adamant that EPA was neither
authorized nor directed by Congress to develop guidance. Rather, these individuals insisted that EPA
was only to act as an information source and was, therefore, only empowered to publish information for
use at the States’ discretion. The highly flexible, partnering environment that encompasses capacity
development has caused confusion and disagreement as to how much authority EPA has. Although
EPA has been extremely responsive to the flexibility needs of capacity development, this responsiveness
has resulted in EPA providing guidance that did not hold States sufficiently accountable for ensuring that
public water systems are achieving and maintaining capacity, as discussed below.

EPA and State Efforts Can Be More Proactive. We determined that while EPA provided tools to
States for developing proactive capacity development strategies, States could improve their efforts to
proactively assist public water systems. Proactivity is an important attribute because it describes how
EPA and the States plan and manage their work to prevent water systems from having difficulties in
providing safe drinking water to the public.

EPA provided the States with guidance and publications that identified how they could design proactive
capacity development strategies to reach all water systems. For example, the publication Information
for States on Implementing the Capacity Development Provisions of The Safe Drinking Water Act
Amendments of 1996 provides examples of tools, such as sanitary surveys, that States could use when
assessing water system capacity.

All six States were working to prevent technical deficiencies in water systems by providing assistance
through activities such as conducting sanitary surveys. Three States (Arizona, Illinois, and South
Carolina) were still in the process of developing assessment tools to help water systems address
managerial and financial deficiencies. The three other States (Massachusetts, Nebraska, and
Washington) were proactive in their efforts to assess and deliver assistance to water systems in
developing their managerial and financial capacities. However, for all six States, we determined that they
can improve their efforts to deliver managerial and financial assistance to systems before technical
problems occur.

The SDWA Amendments give four sequential, closely linked activities that describe how States can
provide proactive capacity assistance to community water systems:

•   Assessing water system T/M/F capacities.
•   Prioritizing systems based on their capacity needs.
•   Delivering T/M/F capacity development services to systems most in need.
•   Collecting information to determine whether water systems are achieving results.




                                                     6
The extent to which States designed and were proactively implementing capacity development strategies
regarding the first three activities is addressed in Appendix A, Table A-2; details on collecting
information are in Appendix B.

Capacity Development Integration into Established Programs Varied. There was a great deal of
variability in the degree to which States integrated the three capacity elements (T/M/F) into the following
established drinking water programs: (1) sanitary survey, (2) operator certification, (3) enforcement, and
(4) DWSRF. Emphasis was being placed on improving the technical capacities of systems, with less
attention being devoted to developing methods to assess and deliver managerial and financial capacity
assistance. As a result, in these four programs, EPA and the States were not maximizing the investment
of capacity development – a process that cuts across all drinking water programs – to assist water
systems in acquiring and maintaining their managerial and financial capacities. Effectively incorporating
capacity development into these four programs, which comprise a major share of States’ interactions
with water systems, will help to ensure that T/M/F assistance will be provided to water systems. Details
on integration efforts for the four programs noted are in Appendix A, Table A-3.

Accountability Process Needs Further Effort. EPA did not perform a meaningful evaluation of State
capacity development activities as required in the 1996 SDWA Amendments. Although EPA received
the reports required under SDWA, there was no systematic process to review them for purposes of
making DWSRF withholding determinations, in accordance with the Amendments. Specifically, EPA
Headquarters did not:

•   Issue guidance to regions on conducting reviews.
•   Identify what constituted passing criteria for evaluating State capacity development efforts.
•   Identify what sanctioning actions were available to EPA.

Details on these issues are addressed in Appendix A, Tables A-4 through A-6.

Without an effective assessment process, EPA Regions will be unable to execute their oversight
responsibilities to determine whether States are making progress in implementing their capacity
development strategies as Congress intended, especially in the areas of providing managerial and
financial capacity assistance. Providing managerial and financial assistance is vital to the long-term
sustainability of public water systems. Ultimately, without sufficient assistance in all three areas of
capacity development, there is no assurance that those water systems most in need will receive adequate
help and all public water systems will have the tools they require to maintain compliance and long-term
sustainability.

Congress directed that States be held accountable, through DWSRF withholding, for “... developing and
implementing a strategy to assist public water systems in acquiring and maintaining technical, managerial,
and financial capacity.” EPA is responsible for annually assessing the implementation of State strategies
to determine whether States should incur DWSRF withholding. The DWSRF withholding provision that
Congress linked to capacity development illustrates how critical EPA oversight of State strategies is to
ensuring States are accountable for designing and implementing effective strategies.

                                                     7
The guidance that EPA uses to hold States accountable for successful implementation of capacity
development is not effective. EPA issued Guidance on Implementing the Capacity Development
Provisions of the Safe Drinking Water Act Amendments of 1996 (EPA 816-R-98-006) in July 1998
to establish national policy regarding implementation of the capacity development provisions of the 1996
SDWA Amendments. In this guidance, EPA listed the “minimum requirements” States must meet to
avoid DWSRF withholding. These minimum requirements include the submission of five reports, relating
to the States’ design and on-going implementation of their capacity development programs. Although
EPA stated that all States submitted the five reports required under the guidance, we concluded the
guidance was too general or lacking in detail for EPA to use the reports to perform effective reviews on
State progress.

We also determined that EPA’s regulations do not provide sufficient passing criteria assessing States’
progress in implementing their capacity development strategies. In August 2000, EPA promulgated
DWSRF withholding regulations, as part of 40 Code of Federal Regulations (CFR) 35, Drinking Water
State Revolving Funds: Interim Final Rule, indicating EPA will withhold funds from a State if it does
not adequately develop an implementing strategy to assist public water systems in acquiring T/M/F
capacity. We determined that EPA’s withholding regulations do not sufficiently define the various
criteria necessary to conduct a meaningful and effective assessment of a State strategy. These criteria
need to define “developing,” “implementing,” “acquiring,” and “maintaining.”

Because of a lack of adequate guidance and defined criteria for assessment, EPA does not have a
credible sanctioning mechanism for use under the DWSRF withholding provisions. Maintaining State
accountability of capacity development activities necessitates that EPA incorporate three steps:
(1) common knowledge of the availability of sanctions, (2) a defined process for applying sanctions, and
(3) a willingness on the part of EPA to use sanctions. Although EPA made States aware of the
possibility of the withholding sanction, it has not developed a process for initiating corrective actions, and
EPA staff indicated a reluctance to use the sanctions.

Region 7 has developed a comprehensive evaluation, which could be used by all Regions, to periodically
assess, in some depth, whether States are meeting the SDWA requirements, including implementation of
capacity development strategies. In April 2002, it initiated a comprehensive review of Nebraska,
including identification of strengths of Nebraska’s programs (including capacity development, operator
certification, etc.), as well as areas that needed improvement. Region 7 also included steps that it will
take to continue to assist Nebraska in its capacity development implementation. This type of
comprehensive evaluation may provide a good model for EPA to consider using for assessments, and,
along with better defined criteria, could use to provide a meaningful assessment of States’ progress, as
part of their oversight responsibilities.




                                                      8
Capacity Development Accomplishments Uncertain Due to Lack of
Performance Measures

In addition to the capacity development implementation issues presented, EPA has not developed or
implemented a plan to assess the performance of the capacity development initiative, and is currently
unable to report on the results that the capacity development program is achieving on a national basis. In
earlier reports, we discussed EPA’s progress in developing performance measures and meeting the
requirements of the Government Performance and Results Act (GPRA).2 These efforts resulted in the
Inspector General in September 2002 naming EPA’s difficulty in linking mission to management a key
management challenge.

Measuring performance is important because it provides accountability, communicates the value of the
program to others, and gives managers information to make decisions for program improvement.
Equipped with such information, EPA and Congress can better allocate resources to improve human
health and the environment. For example, under the President’s Management Agenda, all Federal
agencies will be expected to use OMB’s Program Assessment Rating Tool (PART) results and
performance measures to support and explain budget requests. OMB plans to assess EPA’s drinking
water program, using PART, in FY 2006. However, EPA specifically has not:

•   Identified capacity development goals;
•   Developed performance measures to assess progress toward the goals;
•   Collected data on capacity development performance measures; and
•   Analyzed data and reported on capacity development performance results.

Details on these issues are in Appendix B, Table B-1.

Instead of developing national measures, EPA relied on States to identify those measures, based on their
individual capacity development strategies. But the measures identified by States, being based on
individual strategies, were not similar enough to be used for comparison, or their results consolidated, to
account for results at a national level. For example, there was high degree of variability in baseline
measures for the six States that we reviewed, as shown in Appendix B, Table B-2.

Having an established national measure for capacity is critical for EPA and Congress to determine the
extent to which systems are becoming and staying healthy. Without this information, EPA cannot report
to Congress on its success in implementing the capacity development provisions of the 1996 SDWA
Amendments. Further, EPA ultimately does not know whether it is, in fact, maximizing its efforts to
improve the ability of water systems to deliver safe water to the public. Given the severe budgetary
circumstances that many States face, EPA and the States must be able to demonstrate that the financial
investment in capacity development is yielding results and deserves continued support.


        2
         EPA’s Progress in Using the Government Performance and Results Act to Manage for Results
[EPA-Office of Inspector General (OIG) 2001-B-000001]; and Audit of EPA’s Fiscal 2000 Financial
Statements [EPA-OIG 2001-1-00107].

                                                     9
We also identified four challenges that EPA faces and needs to address to be able to measure capacity
development: (1) having limited control over implementation; (2) lack of comparability due to high
variability in approaches; (3) difficulty in showing periodic progress because demonstrating outcomes
can take years; and (4) States’ concerns over data collection burden and its accuracy. These challenges
are discussed further in Appendix B, Table B-3.

Conclusions

Capacity development is a cornerstone of EPA’s and States’ drinking water programs. All other
drinking water programs support water systems’ efforts to achieve and maintain capacity. Thus, how
well EPA and States’ are able to deliver capacity assistance to public water systems will, ultimately,
affect drinking water quality. This is why it is so important for EPA and States to provide not only
technical assistance but the needed financial and managerial assistance that systems require. EPA also
needs to know how well States are doing in providing T/M/F assistance, to strategically and proactively
invest resources necessary to help States with their capacity development efforts.

Through more efficient investments in developing the capacity of drinking water systems, EPA and the
States can better help public water systems meet current and future financial and regulatory challenges.
To do this, EPA and State capacity development processes need to provide the appropriate amount of
T/M/F assistance to help systems achieve and maintain long-term sustainability. They need to ensure
that programs are balanced – flexible, proactive, integrated, and accountable. Further, EPA needs to
address the challenges to implementing an adequate performance measure system for capacity
development, to identify performance gaps and set target goals to improve overall drinking water quality.

Recommendations

For EPA to achieve the great potential that capacity development can provide to our Nation’s
community water systems, EPA needs to improve its oversight of States’ capacity development effort,
including having the right information and related indicators or measures to assess capacity development
progress. Therefore, we recommend that the Assistant Administrator for Water:

1.    Develop a national capacity development strategy that promotes T/M/F capacity in a proactive,
      integrated, flexible, and accountable manner throughout its key drinking water programs, and
      provide additional guidance and/or information, accordingly.

2.    Revise 40 CFR 35.3515 (DWSRF withholding regulations) to provide more specific criteria that
      will allow EPA to conduct meaningful annual assessments of State capacity development
      strategies. These revisions should include defining the terms “developing,” “implementing,”
      “acquiring,” and “maintaining,” as criteria for EPA to conduct annual assessments of State capacity
      development strategies.



                                                   10
3.   Develop the comprehensive evaluation to be used to assess implementation of States’ capacity
     development strategies, consistent with differing States’ needs and circumstances, and require the
     use of this tool by Regions as part of their oversight responsibilities.

4.   Work with its partners and stakeholders to:

       (a)   Identify a set of common measures that can be used to develop and implement national
             performance goals.

       (b)   Determine what common capacity development data and/or information resources are
             available that could be used to support a national capacity development measure, while
             minimizing data collection burdens to States and water systems.

5.   Using the results in Recommendation 4, develop national capacity development measures by:

       (a)   Identifying capacity development goals to be accomplished, as part of the drinking water
             annual performance goals.

       (b)   Developing specific capacity development measures that support the capacity
             development annual performance goals.

       (c)   Either modifying already existing data collection efforts or developing new data collection
             processes for capacity development performance measures.

       (d)   Analyzing results of capacity development performance on a national basis, and reporting
             progress to Congress and the public, as required by GPRA.

Agency Response and OIG Evaluation

In our draft report, we made recommendations to promote the use of all three elements of T/M/F in
capacity development, as well as to develop a performance measurement system to assess capacity
development achievements. The Assistant Administrator for the Office of Water provided a response to
our draft report on June 23, 2003 (see Appendix D). The Assistant Administrator substantially
disagreed with the message in our report. Substantively, Office of Water felt we misinterpreted
Congress’ intent when it passed the SDWA Amendments, and also cited potential errors in the
information presented. From a process standpoint, Office of Water felt that we had changed the focus
of our study from capacity development to performance measurement, and that meaningful results could
not be obtained, since capacity development is still in the early stages of implementation. Office of
Water also felt that States were misled, since the report mentions States by name, contrary to the
agreement OIG made with the States. We generally do not agree with these issues, and have responded
to these concerns in Appendix E, Notes 7 to 12.

EPA disagreed with the recommendations we presented in the draft report. In response to our
recommendations to change capacity development guidance or regulations, to enhance delivery of


                                                   11
managerial and financial capacities through better oversight, EPA pointed out that these steps would
impede the flexibility afforded to States. We disagree with EPA’s opinion. States are afforded a high
degree of flexibility within the boundaries of delivering T/M/F assistance to public water systems, and
EPA has the responsibility to ensure that this happens. Therefore, we maintain our recommendations
that EPA needs to work with its stakeholders and partners to better promote and integrate managerial
and financial capacity efforts in States’ drinking water strategies.

EPA also did not support measuring capacity development progress, stating that the current GPRA
drinking water goal sufficiently captures capacity development results. We do not agree with EPA’s
position. We maintain that without defined annual goals for capacity development, EPA will not have the
ability to manage this program effectively and to target resources where they will do the most good.
Additionally, EPA’s overall drinking water goal measures drinking water system compliance only, and
accumulates this information in the Safe Drinking Water Information System/Federal Version (SDWIS-
FED), an “exceptions” reporting database, with only systems in noncompliance being tracked. SDWIS-
FED was designed to track enforcement activities, and was not designed to measure managerial or
financial data. Therefore, SDWIS-FED may provide some measure of technical capacity, but not
managerial or financial capacity results. Therefore, relying on this measure to ascertain adequate
capacity is incomplete, at best.

Detailed analyses of the Agency’s comments are in Appendix E.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 90 calendar days of the date of this report. You should include a corrective actions plan for
agreed upon actions, including milestone dates. We have no objections to the further release of this
report to the public. For your convenience, this report will be available at
http://www.epa.gov/oigearth/eroom.htm.

We appreciated the active participation by the EPA Office of Water and selected Regional and State
officials. If you or your office have any questions, please contact me at (202) 566-0830 or Leah
Nikaidoh at (513) 487-2365.




                                                   12
                                                                                                     Appendix A

        Details on Capacity Development Design and
                 Early Implementation Results



             Table A-1: Capacity Development Attributes Presented in 1996 SDWA Amendments

Proactivity was required in the capacity development section of the Amendments, Public Law 104-182,
§1420(c)(2)(A), which stated:

       In preparing the capacity development strategy, the State shall consider, solicit public comment
       on, and include as appropriate – (A) the methods or criteria that the State will use to identify and
       prioritize the public water systems most in need of improving technical, managerial, and financial
       capacity.

Integration was identified in the findings section of the Amendments, Public Law 104-182, §3(8)(B),
which stated:

       [M]ore effective protection of public health requires...maximizing the value of the different and
       complementary strengths and responsibilities of the Federal and State governments in those
       States that have primary enforcement responsibility for the Safe Drinking Water Act.

Flexibility was identified in the findings section of the Amendments, Public Law 104-182 §3(4), which
stated:

       States play a central role in the implementation of safe drinking water programs, and States need
       increased financial resources and appropriate flexibility to ensure the prompt and effective
       development and implementation of drinking water programs.

Accountability was required in the capacity development section of the Amendments, Public Law
104-182, §1420(c)(1), which stated:

       ...State[s] shall receive only [a portion] of the allotment that the State is otherwise entitled to
       receive under [DWSRF], unless the State is developing and implementing capacity development
       strategies that assist water systems in acquiring and maintaining technical, managerial, and
       financial capacity.




                                                        13
                                 Table A-2: Proactivity Efforts by States

Steps          Results of States’ Efforts

Assessing      Arizona, Illinois, and South Carolina did not conduct managerial or financial capacity
               assessments of community water systems. The reasons involved insufficient design of
               capacity assessment tools, or components of capacity development strategies not yet
               being developed. Massachusetts and Nebraska assessed the managerial and financial
               capacity of water systems through the sanitary survey. Washington conducted
               managerial and financial assessments through a review of water system planning
               documents. These reviews occurred on a 6-year cycle for systems with 1,000 or more
               connections. Other reviews occurred only when a system was new or expanding,
               applying for a DWSRF loan, or experiencing problems. (Washington applies Federal
               drinking water regulations to approximately 16,000 water systems. Due to the large
               number of systems, State officials limit planning document reviews.)

Prioritizing   Arizona ranked all water systems by assigning point values to each system, based on a
               variety of data. However, water systems with managerial or financial deficiencies were
               not prioritized because these capacities were not assessed by the State. Subsequent
               to our site visit, Arizona designed a capacity assessment tool that included managerial
               and financial components, such as water system security and fiscal controls. The other
               five States grouped water systems into priority tiers. Massachusetts and Nebraska
               prioritized capacity assistance based on results from their water system T/M/F
               assessments. In Washington, water systems were prioritized based on the operating
               permit “color,” which is determined through T/M/F assessments. Illinois did not
               prioritize capacity assistance based on water system managerial or financial
               deficiencies, but was in the process of developing a capacity assessment tool that will
               allow it to prioritize systems into three priority tiers. South Carolina was also
               experiencing difficulties prioritizing assistance based on water systems’ financial
               deficiencies because the sanitary survey did not incorporate financial assessments into
               the initial review process. South Carolina officials indicated they would like assistance
               in solving this problem.

Delivering     States that identified and prioritized water systems with managerial and financial
               deficiencies were delivering needed assistance. In addition, States that had not
               identified and prioritized water systems based on managerial and financial deficiencies
               were also delivering various levels of managerial and financial assistance. However, by
               not first identifying and prioritizing water systems with managerial and financial
               deficiencies, States may miss the opportunity to prevent technical failures from
               occurring. For example:
               • Massachusetts delivered capacity assistance to water systems by requiring
                   systems with T/M/F deficiencies to follow plans to address identified deficiencies.
                   Third parties were hired to assist systems in the development of these plans.
               • South Carolina, which had difficulties with its assessment and prioritization
                   methods, also delivered this type of assistance to water systems through T/M/F
                   capacity development plans. However, managerial and financial assistance was
                   only delivered to systems once a technical deficiency was identified.
               • Illinois explained that field engineers and third parties worked to educate water
                   boards and water system managers about the managerial and financial operations of
                   water systems. The State indicated it will also encourage water systems to
                   undertake voluntary T/M/F capacity development plans once its capacity
                   assessment tool is developed.




                                                   14
                                       Table A-3: Integration Efforts

Program           EPA and States’ Efforts

Sanitary Survey   All States are required to use sanitary surveys to perform compliance assessments of
                  public water systems. Sanitary surveys may also be used to perform assessments of
                  the managerial and financial capacity of water system management and operators.

                  EPA officials, through statements, training information, and capacity development
                  material, identified the importance of sanitary surveys in ensuring technical capacity,
                  and to a lesser degree, integrated financial and managerial capacities in their
                  materials. When we asked EPA officials if sanitary surveys required information
                  about managerial and financial capacity, they said:

                  •   Although most of the required elements of a sanitary survey are geared toward
                      determining technical capacity, a number of significant deficiencies may disclose
                      underlying problems with managerial and/or financial capacity.

                  •   States were allowed to create their own definition of what constituted a significant
                      deficiency identified as part of the sanitary survey, but definitions for managerial
                      and financial significant deficiencies did not exist because EPA and States did not
                      consider such deficiencies significant to public health.

                  •   The sanitary survey is for compliance-oriented activities and is not related to
                      capacity development.

                  While EPA identified the sanitary survey as a tool States could use for evaluating
                  capacity, the Agency has not conveyed that managerial and financial assessments
                  are just as important as technical. This is evident by the fact that only Massachusetts
                  used the sanitary survey to identify managerial and financial violations. Nebraska,
                  and Washington also used the sanitary survey to varying degrees to assess all three
                  components of capacity. However, Arizona, Illinois, and South Carolina are in the
                  process of incorporating managerial and/or financial capacity assessments into
                  sanitary surveys. As a result, we concluded the sanitary survey needs to better
                  integrate all three components of capacity to ensure that a water system assessment
                  is complete.

Operator          Operators are responsible for the day-to-day management of a water system’s
Certification     technical operations and, therefore, are critical to ensuring the drinking water delivered
                  to the public is safe, but can also be responsible for the management and financial
                  budgets of systems, and can be a critical link to water boards and directors.
                  Massachusetts, Nebraska, and Washington integrated all three aspects of T/M/F in
                  the training portion of their operator certification programs. For example:

                  •   Massachusetts offers courses in the financial, managerial, and operational
                      aspects of running a successful water system, and operators are required to be
                      more informed on managerial and financial capacity matters as part of their duties
                      and responsibilities.
                  •   Washington requires operators to have training about the T/M/F operations of a
                      water system to maintain their certifications.




                                                     15
Program       EPA and States’ Efforts

Enforcement   Massachusetts has incorporated managerial and financial capacity requirements into
              its regulations, and South Carolina requires systems in noncompliance to develop
              business plans that contain all three elements of capacity. Illinois includes voluntary
              managerial and financial self-assessment as part of its enforcement agreements. The
              enforcement programs in Nebraska and Washington have not integrated managerial
              and financial capacity among its operations; however, Washington is attempting to do
              so. Although enforcement is often seen as the last resort to address noncompliant
              water systems, State enforcement programs can be used to promote long-term
              managerial and financial capacity with systems.

DWSRF         DWSRF Loans: EPA requires that loans go to systems that either have adequate
              capacity or will achieve capacity through the loan project. The Drinking Water
              National Information Management System that EPA uses to track the DWSRF
              program cannot determine what T/M/F problems the loans were used to solve.
              Furthermore, the EPA capacity information about the DWSRF program is focused
              mostly on the financial ability of systems to repay the loans, rather than assessing
              the overall T/M/F health of systems. Ensuring DWSRF loan recipients have viable
              sources of funds from which to repay loans is a legitimate concern but, Congress also
              intended States to utilize all three elements of capacity. Therefore, in addition to
              focusing on the ability of systems to repay loans, the States should also address
              managerial and technical issues to ensure the financial investment is protected.

              DWSRF Set-Asides: An EPA Headquarters manager of the capacity development
              program told us EPA wants its regions to encourage States to use DWSRF set-
              asides for T/M/F activities. Future EPA plans include promoting the use of DWSRF
              set-asides for capacity activities in those States that do not currently utilize set-aside
              funds, and working with regions and States to encourage States to revise their
              strategies as necessary. Four of the States in our review (Massachusetts,
              Washington, Arizona, and Nebraska) used between 15 to 31 percent of the DWSRF
              for set-asides to assist in capacity development efforts. However, Illinois and South
              Carolina only used 4 percent for set-asides, in order to fund the administration of their
              DWSRF.




                                                 16
                                Table A-4: Accountability Issues

Issue          Detailed Information

EPA Guidance   EPA’s guidance was too general or lacking for EPA to perform effective reviews of
Inadequate     these reports to assess States’ progress. Stakeholders disputed the Agency’s
               authority to promulgate such guidance and perform these reviews. For example, in
               October 1998, the National Rural Water Association testified before the House
               Subcommittee on Health and Environment that EPA was not authorized, through the
               SDWA Amendments, to establish guidance regulating capacity development
               strategies. This view was prevalent among stakeholders, who noted that, among
               other things, the guidance impacted State flexibility. Examples of stakeholders’
               comments on the EPA draft capacity development guidance are presented in
               Table A-5. The stakeholders disputed authority of EPA to hold States accountable
               for capacity development through DWSRF withholding, which contributed to EPA
               providing minimal oversight guidance to Regions and States.

               EPA guidance for the States in preparing strategies included six general
               “suggestions” or ideas for them to consider in their strategies. The guidance
               included a worksheet States could use to ensure that SDWA capacity development
               requirements were met. For example, the worksheet suggested that States describe
               how they solicited public comments and considered these comments. However,
               EPA did not provide any expectations on what it expected to see in the write-ups of
               these questions. In some instances, the EPA capacity development guidance
               provided to the regions was too vague for the regions to oversee States in designing
               and implementing strategies. Also, EPA provided no review guidance to the regions
               for three of five required reports, as presented in Table A-6.

               Without specific guidance, regions had no standard by which to hold States
               accountable for capacity development through DWSRF withholding provisions.

Withholding    EPA’s withholding regulations are inadequate because they do not sufficiently define
Regulations    the various criteria necessary to conduct a meaningful and effective assessment of a
Inadequate     State strategy. These criteria need to include definitions of “developing,”
               “implementing,” “acquiring,” and “maintaining.” Without these definitions, the
               withholding regulations are not specific enough to perform effective annual
               assessments. Therefore, there is no way to determine whether the strategy that a
               State is “designing and implementing” is effectively providing the necessary services
               to the neediest systems.

               As noted in Table 5, EPA stated that its authority to make regulations and even
               guidance were questioned by various stakeholders. We asked the OIG’s Office of
               Counsel to review the 1996 SDWA Amendments and applicable regulations to
               determine whether EPA’s authority truly was limited. The Office of Counsel attorney
               recognized that the provisions in the SDWA amendments provided a great deal of
               leeway for the States to design capacity development strategies. However, the
               attorney stated that through 40 CFR 35.3515, EPA, for the purpose of executing its
               responsibility under the Amendments to perform assessments, can provide more
               specific guidance or regulations to adequately perform these reviews.




                                                17
Issue         Detailed Information

Sanctioning   Common Knowledge of the Availability of Sanctions. EPA, through its capacity
Process       development guidance, has made States aware of the possibility that DWSRF
Ineffective   withholding can be used as a sanctioning mechanism. In fact, the majority of the
              guidance is focused on DWSRF withholding. All six States visited were aware of
              DWSRF withholding as a sanctioning mechanism.

              Process for Applying Sanctions. EPA defined a process for a sanctioning
              mechanism, but did not establish this process as part of its official capacity
              development guidance (EPA 816-R-98-006). EPA delineated a DWSRF withholding
              sanctioning process through an e-mail sent to regional capacity development and
              DWSRF coordinators on October 26, 2000. Although this e-mail generally
              establishes a process for regions to initiate a review to decide whether to implement
              a DWSRF withholding sanction, it does not specifically establish a process for
              applying withholding as a capacity development sanction. According to EPA, until a
              sanctioning process is part of the EPA capacity development guidance, Regions
              may be reluctant to employ DWSRF withholding against States. Also, as part of this
              process, EPA guidance needs to include criteria that can be applied when assessing
              capacity development progress.

              Willingness to Use Sanctions. The Capacity Development Coordinator for EPA
              told us that he was suspicious that no withholding recommendations were made.
              However, he indicated that several Regional capacity development coordinators were
              instructed by their management to accept what the States provided. There was also
              uncertainty among Regions about whether they would be able to actually implement
              sanctions through DWSRF withholding.




                                              18
       Table A-5: Examples of Stakeholders’ Comments to EPA Capacity Development Draft Guidance

                Stakeholder Comment                                        EPA Response

Many commentors were concerned with whether            While the law clearly contemplates such flexibility,
an appropriate balance could be struck between         it also clearly establishes what States must do
providing State flexibility while ensuring national    regarding capacity development if they wish to
program accountability in implementation. They         avoid a capacity development-related withholding
stressed the need for EPA to acknowledge State         from their DWSRF. The guidance provides a
program diversity in capacity development, and         simple objective framework for EPA to use in
that only limited or no oversight by EPA would be      assessing whether or not a State has done what
necessary.                                             the law requires in order to avoid capacity
                                                       development-related DWSRF withholding.

Many commentors expressed concern regarding            The Agency [EPA] believes that it has proposed
the proposed scope of EPA review of State              the narrowest and most limited review possible
strategies.                                            which is still consistent with the requirements of
                                                       the statute. The Agency’s proposed review of
                                                       State capacity development strategies is narrowly
                                                       focused on ensuring that these statutory
                                                       requirements are met.

Many commentors stated their belief that EPA           The basis for this guidance is the EPA
does not have statutory authority to issue             Administrator’s authority to issue guidance and
guidance related to capacity development               regulations under the DWSRF section. This
strategies.                                            guidance establishes national policy regarding
                                                       implementation of the DWSRF withholding related
                                                       to capacity development strategies under sections
                                                       1420(c) [capacity development strategies] and
                                                       1452(a)(1)(G)(i) [DWSRF withholding relating to
                                                       capacity development strategies] of the SDWA as
                                                       amended.

A number of commentors expressed concern               The Agency has simplified and streamlined the
regarding the proposed requirements for                strategy documentation and reporting
documentation of the strategy and documentation        requirements.
of ongoing strategy implementation.




                                                      19
                  Table A-6: Analysis of EPA Guidance to Regions on Review of State Reports

           Report                                          EPA Guidance to Regions

List of Systems in HSNC        No guidance was established.
(Historical Significant
Non-Compliance)

State Capacity                 The EPA guidance for Regions to use when assessing proposed State
Development Strategies         strategies was identical to that provided to the States. Regions were
                               instructed to use the same general suggested worksheet questions as
                               States when assessing the proposed design of State strategies.

Annual State Strategy          No guidance was established. EPA stated to us:
Implementation for             The determination of whether the state is implementing its strategy is the
DWSRF Withholding              responsibility of the capacity development coordinator. There is no
Determination                  national guidance that outlines what a state implementation report should
                               contain. When making a decision to withhold DWSRF funds, each
                               regional coordinator should use a state’s initial strategy as a baseline to
                               determine the appropriate content of the report as well as progress made
                               towards improving technical, managerial and financial capacity of public
                               water systems.

August 6, 2001 Report to       A January 25, 2001 EPA headquarters memo to regional capacity
the Administrator on the       development coordinators stated the only statutory requirement was that a
Success of Initial Capacity    report needed to be submitted and the structure and details of the report
Development Efforts            were up to each State. The memo only offered “suggestions” to the States
                               on how they may want to consider structuring the report.

State Report to Governor       No guidance was established.
on Capacity Development
Strategy Progress




                                                      20
                                                                                          Appendix B

                  Details on Capacity Development
                     Performance Measurement

             Table B-1: EPA’s Difficulties in Addressing Performance Measurement Steps

Step       Issue Identified          Discussion of Issue

Identify   EPA’s Current Goal        EPA did not include an annual performance goal for capacity
Goals      Structure Does Not        development, a critical Amendment requirement, in its annual
           Address Capacity          plans.
           Development Objectives
                                     EPA also has several other annual performance goals relating to
                                     the Clean and Safe Water goal that affect safe drinking water,
                                     stemming from requirements in the 1996 SDWA Amendments.
                                     For example, in EPA’s fiscal 2002 annual performance goals, it
                                     included: [States] Ensure that 100% of community water
                                     systems are complying with the Consumer Confidence Rule
                                     (CCR) by issuing annual consumer confidence reports.

                                     EPA proposed an annual performance goal for capacity
                                     development for fiscal 1999. However, this annual performance
                                     goal was not adopted. An EPA Office of Water official said that
                                     this goal was dropped, in part, because the Agency was directed
                                     to decrease the number of output measures and goals for that
                                     year.

Develop    Performance Measures      EPA has not selected capacity development performance
Measures   Selected Cannot Be        measures necessary to enable the Agency to assess its national
           Used at National Level    progress in achieving capacity development goals or intended
                                     outcomes. This situation is the result of EPA not identifying how
                                     capacity development would fit into its annual performance goals,
                                     as well as EPA’s limited control over States’ drinking water
                                     programs and the variability in States’ capacity development
                                     processes.
                                     EPA also did not identify nation-wide performance measures,
                                     relying instead on States to identify those measures, based on
                                     their individual capacity development strategies. But the
                                     measures identified by States, being based on individual
                                     strategies, were not similar enough to be used for comparison, or
                                     their results consolidated, to account for results at a national
                                     level.

                                     The six States identified output rather than outcome measures in
                                     their capacity development strategies and, therefore, did not
                                     provide a means to assess long-term, outcome-oriented results.




                                                21
Step        Issue Identified         Discussion of Issue

Collect     Data Collection Not      EPA and the States had five reporting requirements under the
Data        Providing Useful         SDWA Amendments. Because EPA did not develop national
            Measurement              capacity development goals and related performance measures,
            Information              resulting data collection efforts have not been consistent.
                                     Additionally, the data that EPA has collected through various
                                     reporting efforts were not consistent enough, and were not
                                     always complete or accurate.

                                     A comparative analysis of the six States’ baseline measures
                                     against their August 6, 2001, reports to EPA (item 4 in Table 2)
                                     on the success of enforcement mechanisms and initial capacity
                                     development efforts in relation to fiscal 2000 strategies showed
                                     that none of the States provided data or other specific information
                                     that related to how much progress they had made in regards to
                                     their initial capacity development efforts, based on their strategy
                                     baselines. Of the six States, only South Carolina provided any
                                     specific data, by including information on its progress to reduce
                                     HSNCs.

Analyze     Analysis and Reporting   EPA has not identified goals, developed measures or collected
and         Will Be Difficult For    sufficient, complete data needed to perform analysis and report
Report on   EPA                      on results at a national level.
Results
                                     EPA has treated various capacity development reporting efforts
                                     as a data sharing effort for the States, instead of strategically
                                     assessing the information to make decisions at a national level.

                                     When we asked EPA staff whether they had analyzed the State
                                     responses to the HSNC lists and August 6, 2001, reports, they
                                     responded that they had not, even though “we know it’s important
                                     and will likely use it in the future.”

                                     EPA staff indicated plans to use the HSNC reports to publish a
                                     summary document, and then encourage States to use these
                                     summary reports as implementation tools. However, since the
                                     HSNC reports do not contain the information needed to assess
                                     and report on T/M/F capacities and why HSNCs continue to
                                     experience deficiencies, it is doubtful that this information, in its
                                     current form, would be useful in assessing system capacity or in
                                     improving State strategy implementation.




                                                 22
                   Table B-2: Six States’ Baseline Measures from Capacity Development Strategies

           State                             Capacity Development Strategy Baseline Measures

Arizona                      Identify baseline from 1998 or 1999 data that are tracked in State system,
                             including basic system data such as owner, system type, population served,
                             and number of enforcement/compliance actions. Will consider additional
                             approaches to measuring capacity, including outreach activities (third party
                             providers, sanitary surveys), operator certification, compliance data, and
                             assessment surveys.

Illinois                     Uses a combination of compliance with regulations, plus a factor of improved
                             operations, based upon information obtained from sanitary surveys. Will also
                             assess quality of consumer confidence reports.

Massachusetts                Will use sanitary surveys (“Comprehensive Compliance Evaluations”) to assess
                             baseline capacity status of systems. Based on results of evaluation, systems
                             will be assigned capacity status: adequate, conditional, inadequate. Results
                             will then be input into electronic tracking system. State will track and evaluate
                             status of systems as they move from one status to another, as indicator of
                             capacity improvement. Measuring performance based upon number of systems
                             moving from one category to another. Massachusetts has used its State-wide
                             data to identify trends, and develop assistance to target different problems that
                             are surfacing.

Nebraska                     Number of sanitary surveys performed on an annual basis, site visits by
                             outreach team, followup with systems via surveys to solicit feedback on
                             assistance systems have received, followup on deficiencies being found.

South Carolina               If sanitary survey yields poor results, system prepares a business plan, which
                             includes information on facilities, management, and financial planning. State will
                             determine if a system has a business plan. Development of benchmarks from
                             systems’ annual financial statements will provide empirical database for
                             measurement of viability (ability to meet compliance standards).

Washington                   Use three-component formula to measure capacity: (1) operating permit status;
                             (2) system has completed water system planning document that includes three
                             capacity components; and (3) enforcement actions. Data will be gathered,
                             based upon this formula, to prioritize systems for capacity assistance.




                                                          23
                               Table B-3: Performance Measurement Challenges

                         EPA Faces Four Challenges in Establishing Effective System

Having Limited Control Over Implementation. EPA’s limited control over drinking water program
activities makes it difficult for the Agency to exert direct control over achieving national goals.
Responsibilities for day-to-day implementation of Federal drinking water regulations have basically been
delegated to the States. While EPA has oversight responsibility, it has limited control over what States
do. This is a problem faced by Federal programs, according to GAO. Because EPA relies on States and
other partners, such as rural water associations and third party contractors, to implement capacity
development, EPA has to either get buy-in from stakeholders on measures, or adopt new regulations,
requiring reporting on specific, mandated measures.


Lack of Comparability Due to High Variability in Approaches. Congress afforded the States great
flexibility in designing and implementing capacity development. As a result, variability at the State level
for capacity development activities can be so extensive that there is little commonality in outputs. Thus,
there is currently little that EPA can measure that is common to provide a “national” picture.


Difficulty Showing Periodic Progress Because Demonstrating Outcomes Can Take Years. The
length of time that capacity development activities take to produce outcomes makes it difficult for EPA to
report progress on an annual basis. Long-term outcomes may take years to manifest themselves, and
capacity development is a generally a long-term sustainability process. Additionally, external factors can
make it difficult to show a direct relationship between a specific program goal and the activities or outputs
that caused the eventual outcome.

States’ Concerns Over Data Collection Burden and Its Accuracy. The time and cost of collecting
comprehensive data is also an obstacle for developing performance measures. GAO has indicated that
the following challenges with data collection were raised by Federal managers: (1) using data collected by
others, (2) ascertaining the accuracy and quality of performance data, and (3) acquiring data in a timely
way. During our review, five of six States (except South Carolina) expressed concerns over capacity
development data collection burdens, such as additional paperwork requirements.




                                                         24
                                                                                                  Appendix C

                     Details on Scope and Methodology
To determine initial EPA and State success at designing and implementing capacity development
strategies, we reviewed documents and conducted interviews and site visits at EPA Headquarters,
regions, and a total of nine States.

We conducted initial research to learn about State and EPA efforts to help systems develop their T/M/F
capacities. This consisted of reviewing the 1996 SDWA Amendments and visiting three States –
Kansas, Minnesota, and Vermont – judgmentally selected through discussions with Office of Water staff.
We reviewed the capacity development strategies and implementation. We also interviewed water
system operators regarding capacity development outreach.

During our research and field work phases, we also reviewed capacity development policy and guidance
issued by the Office of Water. We interviewed Office of Water officials to determine how guidance and
policy was developed, and how it communicates with regional offices and States. We met with regional
capacity development coordinators to determine how they have assisted States regarding capacity
development strategies within their drinking water programs. We also obtained legal advice from the
OIG Office of Counsel regarding the 1996 SDWA Amendments and related regulations.

After conducting our initial research and identifying T/M/F capacity as the three components that
Congress stated were needed for systems to have the ability to deliver safe water, we also identified four
attributes (proactivity, integration, flexibility, and accountability) that Congress described to EPA and
States as necessary to enhancing a system’s capacity.

Sample Selection

We selected six States for a more detailed analysis of capacity development: Arizona, Illinois,
Massachusetts, Nebraska, South Carolina, and Washington. Our selection was based on information
reported in EPA’s annual report of drinking water violations, Factoids: Drinking Water and Ground
Water Statistics for 2000, for 1998 through 2000.3 The information reported in Factoids used for our
sample selection was drawn from the Safe Drinking Water Information System/Federal Version
(SDWIS/FED), which EPA uses to measure the quality of drinking water in States and the nation and
the effectiveness of drinking water programs. We ranked all States based upon percentage of
population and exposure risk from health-based violations identified in
SDWIS/FED. The states we selected were among those that (according to SDWIS/FED) had the
greatest number and the highest percentage of their population receiving water from public water


        3
          EPA 816-K-01-004 (June 2001) http://www.epa.gov/safewater. At the time of field work, this was
the most recent annual report of States’ performance based on violations reported in the Safe Drinking
Water Information System/Federal Version published by OGWDW.

                                                        25
systems that had failed one or more health based violations. We used this approach in order to be able
to determine progress designing and implementing capacity development in those states where it is most
needed (based on how EPA currently measures performance). This also allows us to assess the
prospect of EPA achieving its stated GPRA goals for its drinking water program.

After the States had been selected, it came to our attention that there may be data errors in the
SDWIS/FED database that could impact the validity of the information in Factoids. Officials from five
of the six States we visited also raised concerns about the quality of data in SDWIS/FED and EPA
officials from OGWDW agreed that the data contained in SDWIS/FED may not be complete for all
States. After reviewing these concerns we decided not to alter the initial list of states. First, given these
states’ prominent position relative to others in SDWIS/FED, removing any of them would have been
difficult to defend given the information we had in hand. And expending resources to collect verifiable
information to warrant adding others to those we had already selected would have also been difficult to
justify given that sample selection was not the principal purpose of this review, which was to assess EPA
and states’ progress designing and implementing capacity development.

During our visits to the States (and discussions with corresponding Regional offices), we met with
officials from a variety of drinking water programs to discuss how capacity development was being
implemented using the four attributes. We met with program staff involved with capacity development,
public water system supervision, DWSRF, operator certification, compliance and enforcement, and third
parties such as State Rural Water Associations. We prepared a compilation of the information gathered
at each State during our site visits, so that the States could review the information collected, and provide
any clarifications or corrections. We sent these compilations to each State in March 2002. All of the
States reviewed the compilations and provided comments back to us. For one State, there were a
substantial number of comments provided. As a result, we returned to this State, to gather additional
information to support the results of our evaluation.

We reviewed performance measurement requirements under the Government Performance and Results
Act, and analyzed EPA and the six selected States’ performance information on capacity development.

We assessed EPA’s progress in developing a performance measurement system for capacity
development by applying a framework of a four- step process presented by GAO through its analysis of
GPRA requirements, and published in a series of recent reports.4 The four-step process, based upon
GPRA requirements, is shown in Table C-1:




        4
        Effectively Implementing the Government Performance and Results Act [GAO/GGD-96-118];
Managing for Results-Analytic Challenges in Measuring Performance [GAO/HEHS/GGD-97-138]; and,
Managing for Results-Measuring Program Results That Are Under Limited Federal Control [GAO/GGD-99-
16].

                                                     26
                       Table C-1: Four Key Steps in the Performance Measurement Process

           Step                Definition                                 Components

    Identifying       Specifying long-term        •   Assessing key elements of strategic plan.
    Goals             strategic goals and         •   Involving stakeholders.
                      annual performance goals    •   Identifying external factors that affect goals.
                      that include the outcomes   •   Linking goals to the mission, as well as to day-to-
                      of program activities.          day operational activities.

    Developing        Selecting measures to       • Determining how annual performance goals will be
    Measures          assess a program’s            measured.
                      progress in achieving its   • Ensuring performance measures will reinforce
                      goals or intended             connection between long-term strategic goals and
                      outcomes.                     day-to-day activities of managers.
                                                  • Obtaining baseline data for comparison.

    Collecting Data   Planning and                • Ensuring data collection efforts are sufficiently
                      implementing collection       complete, accurate, and consistent to be useful in
                      and validation of data on     decision making.
                      performance measures.

    Analyzing and     Comparing program           • Comparing performance data in prior years to current
    Reporting         performance data with         year.
    Results           annual performance goals    • Identifying performance gaps and setting
                      and reporting results to      improvement goals by targeting resources to improve
                      agency and congressional      overall mission accomplishment.
                      decision makers.            • Summarizing findings of program evaluations
                                                    completed during year.




Because of the progressive nature of this process, if EPA faces difficulties in addressing some of the
earlier steps (such as identifying goals), this will negatively impact the remaining steps.

We conducted our field work from October 2001 to November 2002. This evaluation was performed
in accordance with Government Auditing Standards, issued by the Comptroller General of the United
States.

Prior Coverage

•      EPA OIG Report No. 2001-B-000001, EPA’s Progress in Using the Government
       Performance and Results Act to Manage for Results ( June 13, 2001): This report noted that
       EPA needs to strengthen its partnerships with States and other Federal agencies, and invest in
       developing performance information that is more outcome oriented.

•      General Accounting Office Report No. GAO/T-RCED-00-298, Drinking Water Spending
       Constraints Could Affect States’ Ability to Meet Increasing Program Requirements
       (September 19, 2000): This testimony stated that the amount of Federal funding available to the
       States for the 1996 SDWA Amendment requirements had less impact on States’ ability to
       implement their drinking water programs than State-imposed spending constraints.

                                                      27
•   General Accounting Office Report No. GAO/RCED-99-31, Safe Drinking Water Act: Progress
    and Future Challenges in Implementing the 1996 Amendments (January 1999): This report
    indicated that the States lacked the resources needed to fully develop and implement drinking water
    programs, and that State legislatures were not putting needed authorities into place. The report also
    noted problems encountered by small water systems that do not have the T/M/F capacity to comply
    with current and future requirements




                                                   28
                                                                                                                         Appendix D

                                  Agency Response to Draft Report


                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, DC 20460




                                                     JUN 23 2003                                             OFFICE OF
                                                                                                              WATER



MEMORANDUM


SUBJECT:                  Response to the Findings and Recommendations of the Draft Report, Impact of
                          EPA and State Drinking Water Capacity Development Efforts is Unknown

FROM:                     G. Tracy Mehan, III                /signed by Benjamin Grumbles,
                          Assistant Adminstrator             Deputy Assistant Administrator/

TO:                      Nikki L. Tinsley
                         Inspector General

     Thank you for the opportunity to review and comment on your draft report, Impact of
EPA and State Drinking Water Capacity Development Efforts is Unknown. The Environmental
Protection Agency (EPA) and States have coordinated with the Office of Inspector General
(OIG) throughout this lengthy evaluation. The Agency provided significant program materials at
your request and professional staff have been available for numerous meetings.

     In general, we are deeply disappointed in the report, both in substantive content, study                             Note 1
design and evaluation methods, factual accuracy, and overall tone. This negative assessment is
 strongly shared by the six States that participated extensively in your investigation of the national
Capacity Development program. Their input and specific comments are reflected in this
response. Even though your office took an additional year beyond your target date, the report is
seriously flawed and demonstrates a lack of understanding of the program. After more than one                             Note 2
and a half years of investigation and report preparation, the OIG found nothing positive in a
program that is spawning new ideas, new ways of doing business, and developing and
implementing proactive programs that your report underscores as a key feature of a sound
capacity development program.                                                                                             Note 3
    Contrary to the mutually agreed upon objective, the final evaluation shifted gears without
consultation and is narrowly focused on OIG’s view that the Safe Drinking Water Act’s (SDWA)
Capacity Development program lacks nationally quantifiable performance goals and measures.
We believe this view is fundamentally flawed and that the States and EPA have developed
accountability measures that meet Congressional intent and capture the public health protection
benefits of State Capacity Development programs. OIG’s opinion of the respective roles of EPA                             Note 4

                                    Internet Address (URL) • http://www.epa.gov
      Recycled/Recyclable • Printed with Vegetable Oil Based Inks on 50% Recycled Paper (20% Postconsumer)




                                                                                     29
                                                              2

and the States in the Federal-State partnership is not supported by the SDWA’s capacity
development provisions nor the legislative history. Therefore, most of the report’s                 Note 5
recommendations would be better characterized as OIG’s critique of the legislation and its
perceived shortcomings, instead of how EPA and the States should measure program success.

     On a positive note, we do appreciate that the report acknowledges the challenges EPA
would face in developing a national performance-based measurement system. We agree with
four of the five challenges identified in the report on pp. 16-17:

     1.   EPA’s limited control over implementation since States are delegated primary
          responsibility for implementing the drinking water program;
     2.   the Congressionally allowed variability in State approaches makes it difficult to
          identify common measures that can be aggregated at the national level;
     3.   demonstrating outcomes can take years; and,
     4.   States are increasingly concerned over data collection and reporting burdens.

It is precisely because the OIG recognizes these challenges and statutory limitations, but then
chooses to ignore them in the report’s findings, that we are disappointed with the content and
tone of the draft report.                                                                           Note 6
     You provided us with a very brief period to review and comment on the draft report given
your lengthy study period and extended report drafting; the complexity of the program; and your
request that we consult with the States and EPA Regions. We have received significant               Note 7
comments from our regions and the six States that participated in the evaluation. The following,
by consensus, are the major areas of concern with this report:

     1.   The study objectives of the report changed after the data collection phase and the
          data was collected too early to provide meaningful results;                               Note 8
     2.   States and EPA disagree with the OIG’s interpretation of Congress’ directive and
          intent;                                                                                   Note 9
     3.   OIG missed an important opportunity to provide substantive input on all
          components of the capacity development program (only the existing systems
          program was evaluated);                                                                   Note 10
     4.   States were misled as the report mentions States by name, contrary to the
          agreement the OIG made with the States; and                                               Note 11
     5.   there are a number of factual errors that impact the accuracy and credibility of the
          findings.                                                                                 Note 12

Evaluation Objectives and Study Focus Changed After the Data Collection Phase

     The Capacity Development program is a cornerstone in the protection of our nation’s
drinking water. Capacity development is the process of water systems acquiring and maintaining
adequate technical, managerial, and financial capabilities to enable them to consistently provide




                                                                  30
                                          3

safe drinking water on a sustainable basis. The SDWA’s capacity development provisions
provide a framework for States and water systems to work together to ensure that systems acquire
the capacity needed to realize SDWA’s public health protection objectives. EPA, in conjunction
with our State partners, has spent a considerable amount of time and resources in developing and
implementing an effective yet flexible Capacity Development program. However, because the            Note 13
evaluation’s objectives and study questions changed significantly after your investigators
collected data from EPA and the States, we respectfully, but strongly, disagree with the approach
and findings.

     States have expressed surprise and serious concern to the Office of Water (OW) that the
focus of the report has changed. For example, when first approached by the OIG, the state of
Arizona was told the report would be a study that focused on three key areas:

     1.   State successes in capacity development implementation;
     2.   the challenges States face in implementing their strategies; and
     3.   overall program implementation issues and concerns.

In addition, the investigators indicated that the report would contain examples of successful
program elements from States that would foster productive information transfer among the
States.                                                                                              Note 14
    Consistent with that commitment by OIG, the Engagement Letter formally signed by OW
and OIG in October 2001 sets forth the following as the purpose and focus of the evaluation:

     “OBJECTIVE: The OIG’s objective is to evaluate EPA and State formulation and
     initial implementation of Capacity Development programs to determine the extent to
     which such programs have been formulated and initially implemented consistent with the
     specific requirements and overall objectives of the SDWA. Specific emphasis will be
     given to evaluation of how States are integrating capacity development together with
     other SDWA initiatives and drinking water program activities to assist community water
     systems to consistently achieve the health objectives of the SDWA.”

We agreed with OIG that this broad assessment of program start-up and challenges could
potentially assist States and EPA in shaping future phases of the program. This focus of the
evaluation remained in place through completion of the data collection phase that involved the
six States and EPA regions. It was only after site visits and data collection were completed that
OIG apparently changed from a study of State successes, challenges, and overall program issues
to a national performance measures focus.                                                            Note 15

    Because of this eleventh hour change, the information collected is not related to the
changed focus of your evaluation. EPA and the States were never provided the opportunity to
submit information directly related to the final study questions as presented in the draft report.
Changing the focus of the evaluation report post data collection renders the data collected




                                                                 31
                                         4

inadequate to answer the revised objectives of the evaluation. Therefore, we cannot concur with
the report’s recommendations.                                                                          Note 16
     Both the States and EPA believe this surprise switch from the stated purpose undermines
the fairness, quality and credibility of the draft report. We strongly recommend that OIG take the
time necessary to refocus the draft on the original purpose which is supported by the data
collected in the course of your investigation.                                                         Note 17
Data Collected Too Early to Provide Meaningful Results

      When the OIG began the evaluation, EPA and the States were in the very early stages of
program implementation. As we stated to OIG during the planning phase of this evaluation, the
evaluation was conducted too early to provide meaningful results in terms of assessing program
performance for capacity development strategies pursuant to SDWA section1420(c). Capacity
development is universally recognized as a long-term effort. Yet, depending upon when a State’s
capacity development strategy was approved, most States had only approximately one year of
initial implementation efforts for the OIG to evaluate. When the investigation commenced, the
OIG staff recognized this issue and therefore agreed to the three study questions mentioned
above. The draft report does not reference these questions, but rather focuses on national
performance assessment measures and quantifiable results against those measures. This focus is
premature given States had just begun to implement their strategies. Measurable results from
long term strategies cannot realistically be expected at such an early stage of program
implementation. The report offers little to describe this fact and leaves the reader to believe that
States chose to ignore aspects of strategies rather than acknowledge that measurable progress of
successful implementation may take several years.                                                      Note 18
EPA Disagrees with OIG’s Interpretation of Congressional Intent

     We disagree with the OIG’s understanding of congressional intent of the capacity
development strategies. Congress clearly intended that EPA provide States as much flexibility as
possible, and that EPA’s role in capacity development is to ensure that States are implementing
capacity development strategies that are tailored to meet each State’s specific and unique needs.

The conference report for the 1996 SDWA Amendments ( Report 104-741, 104th Congress,
(1996)) could not have made this point more clearly:

      “States are also to adopt and implement a capacity development strategy. This is
     intended to encourage States to continue to focus resources on capacity development
     initiatives. States are required to consider, solicit public comment on, and include as
     deemed appropriate by the State, a number of elements and criteria. The Conferees do
     not expect that every State will adopt the same capacity development strategy and do not
     expect States to include elements in section 1420(c) that the States determine are not
     appropriate. It is not expected that every State will give the same consideration to each of




                                                                  32
                                         5

     the elements listed in section 1420(c). Rather, the Conferees expect that, as suggested by
     existing State capacity development programs, State capacity development strategies
     developed under this section will vary according to the unique needs of the State. The
     Conferees encourage this diversity and indicate that EPA should give deference to a
     State’s determination as to content and manner of implementation of a State’s plan, as
     long as the State has solicited and considered public comment on the listed elements and
     has adopted a strategy that incorporates appropriate provisions.”

     In addition, contrary to OIG’s contention, Congress precluded EPA from assessing
system capacity for the purposes of withholding funds. Specifically, SDWA section 1420(c)(4)
prohibits EPA from making any such assessment:

     “The decisions of the State under this section regarding any particular public water
     system are not subject to review by the Administrator and may not serve as the basis for
     withholding funds under section 1452.”

This provision effectively prohibits EPA from forcing States to meet any other requirements than
those for content, deadlines for implementation, and reporting requirements to avoid sanctions by
withholding DWSRF assistance. Strategies were intended by Congress to assist (not force or
require) public water systems in acquiring and maintaining capacity.                                  Note 19
    We welcome additional legal consultation with your office and the Office of General
Counsel on this statutory interpretation issue.

Missed Opportunity for Meaningful Program Input

     As previously discussed, the OIG missed an important opportunity to provide substantial
input on program improvements. Part of this failure is attributed to OIG’s decision to narrowly
cover only capacity development strategies. In order to truly evaluate the efforts and successes of
the capacity development program, your evaluation should have been designed to cover all
aspects of SDWA section 1420. The new systems program, which is the proactive segment of
the capacity development program, was not mentioned in your report. During your preliminary
research phase, EPA staff encouraged the OIG to take a closer look at this program. At the time
OIG staff began site visits to the States, the new systems program already had more than two
years of implementation to its credit.                                                                Note 20
     In many areas of the report, the OIG criticizes EPA and States for placing too much
emphasis on technical capacity and not enough on managerial and financial capacity. However,
the report fails to even mention several significant efforts that are focused on managerial and
financial capacity. The report does not discuss the Environmental Finance Centers (EFCs)
(SDWA section 1420(g)) and the Small System Technology Assistance Centers (TACs) (SDWA
section 1420(f)). Both of these university-based programs are congressionally funded each year
specifically to work with EPA and States to develop tools and training that directly promote all




                                                                33
                                            6

three elements of capacity. The EFCs have established expertise in financial capacity, and
brought that perspective to their work assisting States develop their capacity development
strategies. They continue to develop tools and training that help systems build financial capacity.
The TACs have also focused their training and tool development efforts over the last few years to
include more projects to help systems build managerial capacity.                                        Note 21
     In addition, the States face barriers in working to assist systems. First, the SDWA
requires that the strategy address existing systems. This in itself is a daunting task since many
States have thousands of public water systems to regulate. Second, States recognize that the
resources simply don't exist to assist all of these systems, and must prioritize systems most in
need of assistance. This means that the States are focusing on the "worst of the worst" systems,
many of which have been in and out of compliance for years and may resist State attempts to
provide assistance.

States Mislead on their Participation in the Evaluation

      As you know, all six states believe OIG violated commitments it made concerning their
participation in the study. At the outset of the project, OIG agreed not to identify the basis for
the selection of the states in the study. This was based upon an understanding that the data used for
the selection was flawed for this purpose. It also reflects a recognition that this information was
irrelevant to the core purpose of the study. Nonetheless, well into the study, OIG informed the
states of a change in their position on this issue.

     OW’s understanding of the OIG’s commitments on this issue is identical to that of the
participating states. We are troubled that OIG’s reversal damages EPA’s relationship with our
state partners. It will certainly impair OIG attempts to obtain state cooperation in future projects.   Note 22
Numerous Factual Errors Impact the Report’s Accuracy

     Finally, there are numerous factual errors throughout the report. In general, especially
given the time frame from start to finish, we are disappointed in the quality of the report
represented by these errors. One representative error is discussed below and we have included an
extensive list as an attachment. We hope that you will address these issues to ensure the
accuracy of the report.                                                                                 Note 23
     An example of a fundamental error occurs on page 28, where the report incorrectly
describes the funding source for State capacity development programs. The report erroneously
indicates that States may use 31% of their Drinking Water State Revolving Fund (DWSRF) for
capacity development. The DWSRF funds a host of programs and capacity development is only
one of the eligible programs. The theoretical maximum in set-aside dollars that could be used to
support capacity development activities is 22% (10% for state program management; 10% for
local assistance; and 2% for technical assistance to systems). However, this would be to the            Note 24
exclusion of other pressing local and state needs that are eligible for those same funds. Yet, the




                                                                  34
                                            7

report does not describe the competition that exists within States for those scarce infrastructure
funds. Neither does it mention the matching requirement in order for those funds to be used for
capacity development program implementation, a difficult undertaking in current economic
times. It is well documented in several reports, both by EPA and other drinking water industry
organizations, that States are faced with enormous infrastructure needs that far outpace DWSRF
funding. Every State faces the very real fact that every dollar set-aside from the DWSRF to
implement programs results in fewer dollars overall to fund needed infrastructure. These two
issues, required matching funds and competition for money within the DWSRF, work to limit the
actual monies each State could set-aside for capacity development and they should be discussed
to provide a complete and balanced picture.

     On future technical reports such as this evaluation, you may wish to consider the benefits
of conducting an independent technical peer review. It is standard practice for comparable
studies in most other Federal government organizations and often improves quality.

Conclusion

     We are including additional comment and information by attachment. As requested,
Attachment 1 lists each of your recommendations and our rationale for nonconcurrence.
Attachment 2 provides a more detailed list of factual errors we identified in the draft report.
Attachment 3 provides comments EPA received from the States that participated in the
evaluation.

      I hope that these concerns can be addressed in your final report. I believe they will make
it stronger, clearer, more accurate and more informative. Please include this response, in its
entirety, in your final report. We also welcome the opportunity to meet with you in person to
discuss our concerns in more detail.

      If there are additional questions or if your wish further clarification of our comments,
please contact William R. Diamond, Director, Drinking Water Protection Division, Office of
Ground Water and Drinking Water, at (202) 564-3751. We look forward to working with you on
this project and future reports concerning the quality of our nation’s drinking water.

Attachments

cc: Kwai-Cheung Chan
    Cynthia C. Dougherty
    William R. Diamond
    Regional Water Division Directors
    Regional Drinking Water Branch Chiefs
    David Terry, Massachusetts Department of Environmental Protection
    Alton Boozer, South Carolina Department of Health and Environmental Control
    Marcia Willhite, Illinois Environmental Protection Agency




                                                                  35
                                   8

Jack L. Daniel, Nebraska Department of Regulation and Licensure
Karen Smith, Arizona Department of Environmental Quality
Gregg Grunenfelder, Washington Department of Health
Dan Engelberg
Leah Nikaidoh
Judy Hecht




                                                        36
                                         9

          Attachment 1: Response to Specific Recommendations

Recommendation 2-1 (a): In order for EPA to effectively manage its capacity development
program, it needs to have the right information and related indicators or measures to assess
capacity development progress. Therefore, we recommend that the Assistant Administrator for
Water to work with its partners and stakeholders to develop and adopt a national definition of
“adequate” T/M/F capacity.

     Nonconcur. Through capacity development guidance that we developed with
     stakeholders, we believe that we have adequately defined what is meant by technical,
     managerial and financial capacity (as noted on pages 2 and 3 of the draft report) and the
     key components to achieving capacity.

      It is not likely that a national definition of "adequate" TMF capacity can be developed
that will address all State capacity development program elements. By the intent of Congress,
State capacity development strategies focused on flexibility and moved away from set
performance measures. Rather than have a mandated program, States were allowed to choose
first to participate, and second, to be allowed the flexibility to develop their own State specific
strategies. In several sections of the report, the OIG admits it would be very difficult to assess
achievements of the programs given the criteria included in the SDWA. If EPA were to develop
a national standard definition of TMF capacity beyond the existing guidance, it would in effect
eliminate most of the intended flexibility from the program.                                          Note 25

Recommendation 2-1 (b): In order for EPA to effectively manage its capacity development
program, it needs to have the right information and related indicators or measures to assess
capacity development progress. Therefore, we recommend that the Assistant Administrator for
Water to work with its partners and stakeholders to identify a set of common measures that can
be used to develop and implement national performance goals.

     Nonconcur. The measures that have capture overall public health protection and
     therefore reflects our capacity development activities.                                          Note 26

Recommendation 2-1 (c): In order for EPA to effectively manage its capacity development
program, it needs to have the right information and related indicators or measures to assess
capacity development progress. Therefore, we recommend that the Assistant Administrator for
Water to work with its partners and stakeholders to determine what common capacity
development data and/or information resources are available that could be used to support a
national capacity development measure, while minimizing data collection burdens to States and
water systems.




                                                                  37
                                             10

    Nonconcur. States established baselines and methods to measure progress as suggested by
    SDWA 1420(c)(2)(D). We are trying to improve program evaluation, but we must target
    data collection to minimize burden to States. We don’t think that nationally reportable
    measures are available or effective to identify the contribution of capacity development to
    our overall GPRA objective. For enhanced program implementation, we could
    analyze/evaluate State program documentation and other data (Community Water System
    Survey, SDWIS data, historical Significant Non-Complier list) to determine if there are
    commonalities.                                                                                Note 27

Recommendation 2-2 (a): Using the results in Recommendation 2-1, develop national capacity
development measure(s) by identifying capacity development goals to be accomplished, as part
of the drinking water annual performance goal(s).

    Nonconcur. The feasibility of measures that could be assessed on a long-term basis is
    uncertain. Primary data sources we would consider have longer reporting horizons. For
    example, the Community Water System Survey is conducted every 4-5 years; the list of
    systems in historical Significant Non-Compliance is submitted from States to EPA every
    three years. The feasibility of identifying measures that can be assessed on an annual
    basis, beyond our existing GPRA measures, is even more unlikely.                              Note 28

Recommendation 2-2 (b): Using the results in Recommendation 2-1, develop national capacity
development measure(s) by developing specific capacity development measures that support the
capacity development annual performance goal(s).

    Nonconcur. Refer to response for 2-2(a).                                                      Note 28

Recommendation 2-2 (c): Using the results in Recommendation 2-1, develop national capacity
development measure(s) by either modifying already existing data collection efforts or
developing new data collection processes for capacity development performance measures.

    Nonconcur. We believe that we could pursue ways to modify existing data collection
    efforts to collect more meaningful data. In an effort to keep minimize State burden, we
    would not develop new data collection processes.                                              Note 29

Recommendation 2-2 (d): Using the results in Recommendation 2-1, develop national capacity
development measure(s) by analyzing results of capacity development performance on a national
basis, and reporting progress to Congress and the public, as required by GPRA.

    Nonconcur. Current measures developed for GPRA reporting are sufficient to assess
    drinking water program effectiveness and is in full compliance with GPRA. GPRA
    measures for segment-by-segment core program activities are not feasible nor will they
    provide meaningful indicators of progress.                                                    Note 30




                                                               38
                                       11

Recommendation 3-1: Revise 40 CFR 35.3515 (DWSRF withholding regulations) to provide
more specific criteria that will allow EPA to conduct meaningful annual assessments of State
capacity development strategies. We suggest that EPA also include as criteria the results of
Recommendation 2-1, in regards to defining what constitutes adequate T/M/F capacity.

    Nonconcur. EPA does not believe that the DWSRF regulation is the appropriate
    mechanism place to dictate to the regions how to assess State reports for the purposes of
    withholding DWSRF funds. We also believe this is inconsistent with Congressional
    intent. We do believe that we can provide informal guidance and assistance to the
    regions in reviewing the annual capacity development reports for the purpose of making
    withholding determinations, provided we determine that such guidance adds value to the
    process.                                                                                      Note 31

Recommendation 3-2: Utilizing the outcomes of Recommendations 2-1 and 2-2, develop a
national capacity development strategy that promotes T/M/F capacity in a proactive, integrated,
flexible, and accountable manner.

    Nonconcur. Our guidance development, outreach, and advocacy work clearly articulates
    our vision and outlines our strategy.                                                         Note 32

Recommendation 3-3: In light of Recommendations 3-1 and 3-2, modify capacity development
guidance accordingly.

     Nonconcur. The draft report fails to recognize that Congress chose a flexible approach
    for States in developing and implementing the capacity development program. Rather
    than a top down approach, Congress asked that EPA set broad guidelines and that States
    take charge of developing strategies for addressing the unique characteristics of their
    State drinking water systems. Changing the capacity development guidance would
    remove the flexibility we have allowed States to have in implementing the program.            Note 33




                                                              39
                                         12

          Attachment #2: Factual Errors and Other Comments

General
The cover letter incorrectly identifies Bill Diamond as the Director of the Office of Ground
Water and Drinking Water. He is the Director of the Drinking Water Protection Division within
the Office of Ground Water and Drinking Water. Also, the Regional Capacity Development
Coordinators and Regional Water Division Directors are different people. The coordinators are
staff, not supervisors.                                                                               Note 34

Report Title
The title of the report should be changed from “Impact of EPA and State Drinking Water
Capacity Development Efforts is Unknown” to “Impact of EPA and State Drinking Water
Capacity Development Efforts Uncertain or Needs to be More Fully Documented. Implying
that EPA and the States have no idea about the impact of the capacity development program is
not helpful and leaves the reader with the idea that the capacity development program is not at all
useful.                                                                                               Note 35

Executive Summary:
Page i,1st paragraph: The second sentence reads, “These systems vary from very small rural
systems to very large systems, and they all face problems with aging infrastructure, underfunding,
and future drinking water regulations.” We recommend changing the phrase, “they all face
problems” to “many face challenges”.                                                                  Note 36

Page i, 1st paragraph: The last sentence does not logically follow the sentence above it. It refers
to the estimated payment gap of $265 billion, which includes both capital and Operations &
Maintenance costs. Most of the gap will likely be felt by larger systems, which have greater
needs. Also, the sentence before refers to “expanding requirements of the SDWA”, but most of
the gap is related to those needed to simply operate water utilities and has nothing to do with
SDWA requirements. For example, most of the need and gap is due to payments needed for
pipes.                                                                                                Note 37

Page i, 2nd paragraph: The conference held in January 2003 was on “innovative approaches to
addressing the infrastructure gap”, not on the gap in and of itself. Please cite where the AA for
Water called for capacity development investment as a means to address the issue.                     Note 38

Page i, 3rd paragraph: Add “program” at end of the first sentence.                                    Note 39

Page i, last paragraph: Change the phrase “…unable to determine the extent to which those
capacity development efforts have been effective” to “…unable to fully determine the extent to
which those capacity development efforts have been effective”. This change in language more
accurately portrays the current situation.                                                            Note 40




                                                                 40
                                         13

Page ii, 1st paragraph: We do not agree with the conclusion that EPA cannot report to Congress
on the successes of the capacity development program as envisioned by the 1996 SDWA
Amendments. We can analyze existing data submitted by States. The data necessary to report
successes to Congress wasn’t available at the time the evaluation was conducted.                       Note 41

Page ii, 2nd paragraph. Mentioning the budget crises that States are currently facing is somewhat
irrelevant given that most of the funds that are being used for capacity development are Federal
dollars from DWSRF set-asides.                                                                         Note 42

Chapter 1
Page 1, 1st paragraph: The second sentence reads, “These systems vary from very small rural
systems to very large systems, and they all face problems with aging infrastructure, underfunding,
and future drinking water regulations.” We recommend changing the phrase, “they all face
problems” to “many face challenges”.                                                                   Note 43

Page 2, 1st paragraph: The report mentions the use of the number of water supplies with a
historical significant non-compliance (HSNC) as a means of gauging the degree of problem a
State may be having in implementing the drinking water program. OIG did not take into account
the enforcement actions that had been taken to assure water supplies were committing to
corrective actions that, given time for implementation of construction programs, would result in
attainment of compliance. They had also failed to recognize the overall high compliance rates
that are being achieved.                                                                               Note 44

Page 2, 1st paragraph. What was the number of systems that had a history of SNC in 2000.
Without a number there is no sense of the significance of the 91% value. Is it 91% of 10
systems, 2000, 20,000?                                                                                 Note 45

Page 2, 1st paragraph: What is the source for saying that “SDWA requirements had surpassed the
TMF capabilities of most small systems?”                                                               Note 46

Page 2, Treatment bullet: It is incorrect to assume that all public water systems treat their water.
There are ground water systems that do not have treatment as part of the process of delivering
safe drinking water.                                                                                   Note 47

Page 3, 2nd paragraph. The report States that a potential amount of funds that could have been
withheld between 2001-2003 was $359 million. The report seems to reflect that it would have
been a good thing to withhold funds from States - which would have had the likely effect of
defunding all set-asides and negatively impacting a State’s ability to fund infrastructure projects
needed for public health. Note that while EPA has not permanently withheld funds, it has, when
allowed, held back full award of funds until requirements have been met.                               Note 48




                                                                 41
                                           13

Page 4, 1st paragraph: The third sentence should read, “...by requiring them to have to
demonstrate...”                                                                                              Note 49
Page 4, last paragraph: The last sentence should read, “Congress expects EPA to approve State
strategies if the States considered, solicited public comment on, and included as appropriate”.
After that sentence, there should be two additional bullets added to mirror all of the items as
listed in SDWA 1420(c)(2)(A-E), Content. The bullets that should be added are: a description of
the institutional, regulatory, financial, tax, or legal factors at the Federal, State, or local level that
encourage or impair capacity development; and, an identification of the persons that have an
interest in and are involved in the development and implementation of the capacity development
strategy (including all appropriate agencies of Federal, State and local governments, private and
nonprofit public water systems, and public water system customers).                                          Note 50
Page 5, 1st paragraph: The first bullet should also include using SDWA resources to: encourage
the development of partnerships between public water systems to enhance the technical,
managerial, and financial capacity of the systems; and, assist public water systems in the training
and certification of operators.                                                                              Note 51
Page 5, 2nd paragraph: We believe it is incorrect to say your fieldwork ended in November 2002.
It is our understanding that your fieldwork ended in February 2002 with the last State site visit.           Note 52
Chapter 2
Page 11, 3rd paragraph: Because the evaluation was premature, it is unfair to say that “The EPA
Capacity Development Coordinator said that because of State flexibility, measures of capacity
development success would have to be State-specific because all of the States’ programs are
unique. This means that the Agency will not be able to determine whether the capacity
development initiative is working, whether some activities are more or less effective than others,
and which components of the program need attention or help.” Once we have an adequate
amount of time for implementation, EPA and States will be able to determine that the capacity
development provisions of SDWA are improving public health protection. There is also no value
added by quoting statements made by the EPA Capacity Development Coordinator. Throughout
your evaluation time frame, there have been several HQ staff working with the capacity
development program.                                                                                         Note 53
Page 13, 2nd paragraph: Please explain the basis for the statement “...we found that the
data that EPA has collected through various reporting efforts were not consistent enough, and
were not always complete or accurate.”                                                                       Note 54
Page 15, 2nd paragraph: The statement “EPA indicated it planned to periodically update this
report (January 1997 report, “Initial Summary of Current State Capacity Development
Activities,” EPA 816-S-97-001) as States developed and implemented their capacity development
programs (although it had not been updated as of the date of our draft report).” is not a true
statement. EPA did update this report in July 2001. The report, titled “State Strategies to Assist




                                                                     42
                                          14

Public Water Systems in Acquiring and Maintaining Technical, Managerial, and Financial
Capacity: A Comprehensive Summary of State Responses to Section 1420(c) of the Safe Drinking
Water Act (EPA 816-R-01-019).                                                                       Note 55

Page 15, 2nd paragraph under Analysis and Reporting, 1st sentence. Through June 30, 2002,
States had only expended $30.83 million on capacity development activities under the DWSRF
set-asides, not “hundreds of millions of dollars”.                                                  Note 56

Chapter 3
Page 19, 1st paragraph: What is the basis for the following statement: “While EPA provided
guidance and publications to assist States in developing their capacity development strategies,
the Agency has not continued to provide oversight to ensure that State strategies are being
implemented to assist systems most in need of capacity assistance.” We believe that EPA is
providing adequate oversight to the States.                                                         Note 57

Page 26, 1st paragraph: We believe that you are putting too much emphasis on incorporating
managerial and financial capacity into sanitary surveys. Sanitary surveys are only required to be
completed every three years for community water systems. State capacity development programs
use system “self-assessment” forms to evaluate baseline technical, managerial and financial
capacity. The self-assessments can be conducted on a more frequent basis than sanitary surveys.
Through training developed by EPA’s Drinking Water Academy, we are promoting the linkages
of all three elements of capacity into the sanitary survey process.                                 Note 58

Page 26, last paragraph: Enforcement on very small systems with managerial and financial
capacity issues may or may not be a feasible method to achieve compliance, even as a last resort.
 In cases where community resources (manpower, financial) are severely limiting, a State may
decide to take an approach which provides direct assistance as a more effective remedial tool.
Usually, enforcement is reserved for a very small number of cases identified as deliberate
recalcitrance or resistance to assistance efforts.                                                  Note 59

Page 27, 3rd paragraph: The third sentence should be finished as follows, “Congress intended
States to utilize all three elements of capacity to ensure the system can repay the loan.”          Note 60

Page 27, 5th paragraph: The first sentence indicates that “EPA requires that loans go to systems
that are addressing all three TMF components”. This is incorrect. EPA requires that all systems
have TMF capacity in order to receive a loan or agree to make changes to obtain capacity. [40
CFR 35.3520(d)]. Therefore, not all loans were used to solve TMF problems. The last sentence
in the paragraph is not needed because States are already required to address managerial and
technical issues. It seems odd that elsewhere in the report, States are faulted for spending too
much time on technical capacity and not the other elements, while in the DWSRF they are
faulted for spending too much time on financial capacity. Our sense is that States are addressing
all three elements in their capacity assessment, but that in closing the loan they are looking
beyond base financial capacity requirements to ensure repayment of the loan.                        Note 61




                                                                 43
                                           15

Page 27, 6th paragraph: The report states that “EPA recognizes that an infrastructure gap exists.
Congress, to address this funding gap, allowed States...”. There is no relationship between
EPA’s recognition of an infrastructure gap and Congressionally allowed DWSRF set-asides. The
Gap Report came out 6 years after the Amendments authorizing the DWSRF program.
Recommend deleting italicized text.                                                                    Note 62

Page 30, 1st paragraph: The report discusses that the accountability process is ineffective. For
example, Region 7 performed a comprehensive evaluation to see how its States were doing after
the first year of implementation, and to see if there was anything the region could do to assist the
State. EPA holds the States accountable and will recommend a course of action if we see the
insufficient implementation of this program. However, before we recommend withholding, we
will do everything within our authority to assist the State to achieve in this program.                Note 63

Page 33, Table 3.1: You state that EPA HQ did not provide guidance to the regions on “how to”
review the States’ Reports to the Governor. We believe that Congress did not intend for EPA to
evaluate these reports for content, but rather to ensure the reports were written and submitted to
each Governor.                                                                                         Note 64

Page 34, 4th paragraph: What kind of “process” are you looking for? The process for
withholding and noncompliance in the DWSRF program is outlined in the regulations (40 CFR
35.3515 and 35.3585) and described in section VII.A. of preamble to the DWSRF rule.                    Note 65



Page 35, 1st paragraph: The report refers to a discussion with the EPA HQ Capacity Development
Coordinator’s personal feelings and statements about EPA Regional office management that had
instructed their regional coordinators not to use of DWSRF withholding as a sanction against
States failing to meet the capacity development requirements (not implementing their strategies)
of SDWA. This discussion, however untrue or true, gives the impression that EPA generally
never had any intent to enforce non-compliance with the requirements of section 1420 of SDWA
and does not belong in a factual report.                                                               Note 66




                                                                 44
                             16


Attachment 3: Comments from State Participants        Note 67




                                                 45
46
                                                                                          Appendix E

                    OIG Analysis of Agency Response

Note 1: EPA “expressed disappointment” in the substantive content, study design and evaluation
methods, factual accuracy, and tone of our draft report. We strongly disagree with the overall
characterization of our review by EPA for the following reasons:

a. EPA expressed disappointment in the “substantive content” of our draft report. We reviewed the
   capacity development program for existing systems based on the fact that a substantial majority of
   community water systems are existing systems. These systems serve 264 million people. Therefore,
   we believed we reviewed areas that could have a significant impact on drinking water issues. We
   discussed this with EPA when we entered into fieldwork in October 2001, and held monthly
   meetings with EPA and States during the course of our evaluation, and no concerns were raised
   about the overall direction of our report.

b. EPA also expressed disappointment in our “study design and evaluation methods.” Two issues that
   seem to be motivating this comment were our initial decisions to not include the names of the States
   visited, and to review performance measurement of capacity development.

   When we began this study, the States selected for review expressed sensitivity about having been
   selected, and being characterized as “failing.” They were concerned that we had utilized information
   in SDWIS/FED, which they felt was unreliable. As a result, we indicated that we would not mention
   the States. However, we subsequently realized this was inappropriate, because including the State
   names would add significant, valuable information to the report. Further, we noted the information
   we used on the States was already available to the public via the internet and other sources. As soon
   as we decided the names of the States should be included in the report, we notified EPA and the six
   States, and the States accepted our decision. EPA also indicates on page six of its response that the
   SDWIS data are flawed. However, these are the same data that EPA utilizes to report performance
   to Congress. Furthermore, these are also the same data EPA used in its current draft "Report on the
   Environment,” stating that:

       An increasing number of people are served by community water systems that meet
       all health-based drinking water standards. In 2002, states reported that 94
       percent of the population served by community water systems were served by
       systems that met all health-based standards, up from 79 percent in 1993.
       Underreporting and late reporting of data affect the accuracy of this information.

   While the data are considered to be flawed by EPA, at the same time, EPA uses the data to show
   progress and trend in their official documents.




                                                   47
    Regarding performance measurement, as part of any evaluation or audit, we generally look at
    performance measurement related to what we are reviewing. Since capacity development is still in
    the early stages, we thought it was particularly useful to address this issue, since being able to
    adequately measure performance is very useful when implementing a new strategy. We do not
    expect EPA to dictate to the States how to measure their individual programs. However, EPA
    needs to develop a means to assess sets of capacity development data from States and be able to
    evaluate capacity development progress on a national basis.

c. EPA also questioned the “factual accuracy” of the draft report. There were some minor factual
   inaccuracies in the draft, and we appreciate the Agency’s assistance in correcting those errors. One
   of the main purposes of issuing a draft report is to identify and correct such errors. The errors EPA
   identified were not significant and did not alter our positions. Further, as shown in additional
   comments that follow, most of the issues raised by EPA involved clarification rather than correction.
   We have added such clarification where appropriate.

d. Lastly, EPA expressed disappointment in the “overall tone” of the draft report. We believe that we
   have presented a balanced and objective assessment of EPA’s and selected States’ design and early
   implementation of capacity development. Our presentation included positive aspects of what States
   and EPA are doing as well as areas that need improvement. However, based on EPA’s response,
   we have included additional information reflecting efforts that EPA and States are making in the
   continued implementation of capacity development programs.

Note 2: We strongly disagree with EPA’s assessment that our report is “seriously flawed” and
demonstrates a lack of understanding of the capacity development program. As part of our evaluation,
we clearly present all three facets of capacity development (T/M/F), and how EPA and States’ designed
and implement capacity development efforts to address T/M/F efforts. EPA stated that we changed the
focus of our report from capacity development to national performance measurement. While we looked
at performance measurement because reviewing GPRA-related issues is a standard part of OIG
evaluations, it was not the primary focus of our report.

EPA has chosen to narrowly interpret the SDWA Amendments in regard to what it can and cannot ask
or expect States to do in order to meet Congressional intent. We asked our Counsel to review the
Agency’s response to our draft report regarding this issue. Our Counsel stated that:

    The first legislative history excerpt cited by OW talks about EPA giving deference to the
    states. That doesn't mean complete abdication. Even the last sentence of the legislative
    history language begs the question when it says that EPA should give deference to a
    state's plan so long as the state solicited public comment "and has adopted a strategy that
    incorporates appropriate provisions." One could argue that this last phrase gives EPA
    some say in what "appropriate provisions" should look like to some degree.

    In addition, OW's next statutory citation to 42 USC 300g-9(c)(4) -- which provides that a
    state's decision with respect to a particular public water system is not reviewable by EPA

                                                   48
    and cannot serve as a basis for withholding SRF funds -- does not support OW's position
    that EPA is limited in evaluating a state's capacity development strategy. The plain
    meaning of this statutory provision precludes EPA from meddling with a state's decision
    regarding the capacity development of a "particular" system. However, this provision
    says nothing about EPA's responsibility in ensuring whether a state has executed its
    responsibility to develop an overall capacity development strategy. Nor does it preclude
    EPA from withholding SRF funds if a state does not develop such a strategy.

EPA maintains that our position would infringe upon the flexibility Congress intended for the States, but
we do not believe that is the case. EPA’s position does not support Congress’s expectation that EPA,
through withholding provisions, ensure that public water systems are maintaining and achieving capacity.
In our opinion, if Congress wanted this to be solely a State program, it would not have provided such
accountability provisions for EPA to utilize.

Note 3: We believe that we have presented a balanced and objective assessment of EPA’s and the
States’ design and early implementation of capacity development. We certainly identified positive
aspects, especially in the area of flexibility. We duly noted that each of the States we visited had
designed capacity development strategies in accordance with SDWA and met all reporting requirements
to date. We also determined that EPA’s approach to designing and launching the capacity development
was proactive and used a high degree of stakeholder participation to develop applicable guidance.

EPA stated that by examining performance measures of this program we “shifted gears.” However, as
already discussed, we do not think that was the case. We generally always look at performance
measures during our evaluations, and since we observed a management issue concerning the adequacy
of measurement for the program we were reviewing, it was our duty to report on that issue. As noted,
we discussed the performance measurement issues with EPA and the States at numerous meeting during
our field work, and concerns were not raised at the time.

Note 4: Contrary to EPA’s suggestion, we were unable, through our review of capacity development
and EPA’s GPRA measures, to identify measures of progress for this critical program. Our findings on
this issue are presented on pages 8-9 in our final report.

Note 5: We don't share EPA's characterization of our report as a "critique of the legislation and its
perceived shortcomings." Rather, in one respect our report can be viewed as a critique of EPA's inability
to utilize all of the tools that Congress provided it with (notably the withholding provisions contained in
SDWA) to encourage states to fully carry the capacity development provisions of the legislation.

Note 6: These challenges, although difficult, need to be addressed. We do not view challenges to
success as excuses for not succeeding. EPA is not alone in facing challenges to measuring its
performance. As GAO pointed out, throughout the government GPRA is facing several significant
challenges. In our draft report, we recognized challenges facing EPA in measuring capacity development.
We believe that the challenges to performance measurement of this program that we identified in the
draft report are solvable. To this end, we offered recommendations to address these challenges. For

                                                    49
example, in Recommendation 4 [formerly Recommendation 2-1(b) and (c) in the draft report], we
recommended that EPA work with States and stakeholders to develop a set of common measures that
would minimize data burdens on the States. Therefore, we do not agree with the Agency’s comments
that we ignored these issues in our findings.

Note 7: EPA contends that we only allowed it a "brief" amount of time to comment. On the contrary,
we provided 70% more time for its review than our agreement with EPA (set out in EPA Manual 2750)
normally allows. According to this manual, the action official is provided 30 days to respond to draft
reports. We granted an additional 3 weeks that was requested. However, we declined a second
extension requested by your office. On balance we believe that we were quite fair. Moreover, during our
monthly meeting in May 2002, and in prior meetings, States expressed the desire to respond to the draft
report. We left up to your office the decision of whether to include comments from the states.

Note 8: We do not agree with EPA’s assessment. Throughout our report, we indicate that this
evaluation was a design and early implementation review. During our discussions with EPA and States,
we explained the issues we were developing and provided an opportunity for EPA to address issues
early on, before programs become too ingrained.

Note 9:EPA misconstrued our point. We were not suggesting in our draft report that EPA has the
authority to get involved in States’ assessments of individual systems. Rather, EPA is required to ensure,
as part of its withholding determinations, that States, "continue to focus resources" on capacity
development initiatives. (EPA expanded on this item at "Note 19" of its comments.

Note 10: We appreciate that EPA may feel that we should have studied new as well as existing
systems. Our decision to review existing systems was one that we made early in our review. As we
point out in Note 1(a) we decided to review the capacity development program for existing systems
because they comprise a substantial majority of community water systems that provide drinking water to
the public. This decision to review existing systems was made during our preliminary research phase, and
discussed with EPA as part of the initiation of field work, in October 2001. We believed that this was a
significant area to be reviewed. Additionally, our review was facilitated by the fact that EPA tracks and
reports to Congress on the compliance of existing systems, as part of its GPRA performance reporting.

Note 11: This issue is addressed in Note 1(b).

Note 12: As we point out in Note 1(c) like most internal draft reports, this draft contained some errors.
Correcting potential errors is in fact one of the principal reasons why we share our reports with program
offices prior to release to the public. However, it should be noted that most of the items raised by EPA
in this area were items requiring additional clarification rather than correction. We have added such
clarification, where appropriate.

Note 13: See Notes 1(b) and 3.

Note 14: See Note 3.

                                                    50
Note 15: See Note 3.

Note 16: We regret that EPA believes that our discovery during fieldwork of its failure to adequately
measure performance (which it characterizes as "changing the focus" of our study) prevents us from
drawing findings about this new information, and that the Agency is, therefore, unable to concur with our
recommendations.We disagree with EPA’s assessment that the data collection performed did not allow
the States the ability to submit information directly to the OIG for consideration. The information
collected on the performance measurement issues that related to the States was collected during field
work, and reviewed by the States as part of the compilations we prepared and sent to the States for
review. The national performance information relating to EPA is public information available on EPA’s
web site and, therefore, EPA should be able to address recommendations relating to performance
measurement accordingly.

Note 17: See Note 3.

Note 18: See Note 8.

Note 19: See Note 9.

Note 20: See Note 10.

Note 21: During our evaluation, we specifically asked the States and Regions about the use of
Environmental Financial Centers and Technology Assistance Centers. We have identified on page 3 of
the report that SDWA funded these tools to assist States in implementing SDWA.

Note 22: See Note 1(b).

Note 23: See Note 12.

Note 24: We agree that EPA’s presentation of the 31 percent of DWSRF funding for use for capacity
development provides more detail, and offers a better picture on the availability of set-aside funds for
capacity development.

Note 25: We reorganized our recommendations. As a result, we dropped this recommendation from
the final report. It is subsumed under other recommendations (notably Recommendation 4). If EPA, as
directed in Recommendation 4, can capture results on a national level for capacity development success,
a specific definition of adequate capacity may not be needed. We disagree, however, with EPA’s
assertion that a national standard definition of adequate T/M/F capacity would effectively eliminate
flexibility. We suggest that EPA consider outcome-based measures of this critical program. Adequate
capacity is an end result, which all systems should be expected to achieve. The tools (or outputs) that
States use to assist systems do not have to be uniform – States can and should be allowed the flexibility
to implement programs.


                                                   51
Note 26: We completely disagree with EPA’s views that the SDWIS/FED based performance
measure is adequate. EPA has identified significant errors in this information source. SDWIS/FED was
designed to do one thing, but is being used for another. It is a repository of information about self-
reported violations by public water systems. Only systems in non-compliance are tracked. SDWIS/FED
was not designed to measure managerial or financial data. Therefore, at best, SDWIS/FED can provide
some measure of technical capacity, but not managerial or financial capacity results. Also, as presented
in our draft report, program managers make day-to-day decisions using annual performance plans,
describing annual performance goals, and measuring outputs and outcomes, but EPA does not have any
such information that specifically relates to capacity development.

During our fieldwork, the Massachusetts’ Drinking Water Program Director stated that he was working
with OGWDW on how States can capture results and measure success of their capacity development
programs. EPA should continue these efforts, and work to identify and adopt national capacity
development annual performance goals. Our recommendation remains in the final report and is now
Recommendation 4(a).

Note 27: We do not share EPA’s pessimism that nationally reportable measures are not available or
effective to identify the contribution of capacity development to its overall GPRA objective. For
example, OGWDW has been working with stakeholders to address data issues, including OGWDW’s
efforts to obtain more parametric data. The Chief of OGWDW’s Infrastructure Branch said, during
presentations that he held with various stakeholder groups, that there were perhaps 8 to 10 data
elements that States probably already collect that EPA could use to better measure drinking water
quality. As we stated in our report, performance measurement is not an easy process. However, we
continue to believe that the Office of Water needs to address this issue, and work with its stakeholders
and partners to get this process started, as part of the continued implementation of capacity
development. Our recommendation remains in the final report, and is now Recommendation 4(b).

Note 28: We understand the difficulties EPA may face in implementing this recommendation.
However, as presented in the draft report, States (such as Massachusetts) are gathering a variety of data
on capacity development activities and analyzing this information annually to assess progress, and identify
trends for decision making and outcome measurement. As we recommended, EPA should partner with
States, such as Massachusetts, to assist EPA in developing annual performance goals for capacity
development. Our recommendation remains unchanged, and is now Recommendation 5(b).

Note 29: Depending on what capacity development annual performance goals are adopted, EPA
would be in the best position to determine whether new information needs to be collected, or, as EPA
indicated, existing data collection efforts provide data. Additionally, States, as they implement their
capacity development strategies, should be gathering data to measure results against their baselines.
Thus, States should already have information available for EPA to use. Our recommendation remains
unchanged, and is now Recommendation 5(c).

Note 30: As we provided in the draft report, EPA has established annual performance goals for other
drinking water activities. EPA believes that, in these instances, annual goals are useful for measuring

                                                    52
progress. EPA also stated, in its response, that capacity development is a cornerstone of the drinking
water program. Thus, an important program, such as capacity development, should be measured, as
well. EPA’s program managers need periodic information as to progress being made in capacity
development, in order to make resource and policy decisions. Our recommendation remains
unchanged, and is now Recommendation 5(d).

Note 31: For the final report, our recommendation remains unchanged, and is now Recommendation 2.
However, the Assistant Administrator stated that EPA can provide informal guidance to Regions and
States to perform annual assessments (as part of the withholding determination process), including
appropriate criteria. In responding to the final report, EPA should provide an action plan and milestone
dates for completing such actions. The guidance, however, should be provided formally, to ensure
consistent application by Regions and States.

Note 32: Based upon our findings in the draft report, EPA needs to better articulate proactivity,
integration, and accountability, to ensure that States’ capacity development efforts incorporate
managerial and financial capacity assistance. A national strategic plan would include both short- and
long-range goals, from which to measure progress. EPA does not have such measures. For the final
report, our recommendation remains unchanged, and is now Recommendation 1.

Note 33: We do not agree with EPA’s response. Providing guidance does not necessarily impede
flexibility, especially if the guidance will help States to successfully development and implement their
capacity development programs. As done with the current capacity development guidance, EPA can
make changes to guidance using stakeholder participation, thus getting buy-in from stakeholders and
ensuring that flexibility is maintained. Our recommendation remains unchanged, and is now
Recommendation 1.

Note 34: Corrected.

Note 35: Agreed. We made changes to the final report accordingly.

Note 36: Agreed. We made changes to the final report accordingly.

Note 37: The information provided by EPA gives a more detailed explanation of what makes up the
infrastructure gap. No changes were made to the final report.

Note 38: The Assistant Administrator’s speech is located on EPA’s web site, at
www.epa.gov/water/speeches/sustaining.html. The Assistant Administrator included in his speech
specifically that SDWA capacity development can assess management of water systems to be able to
provide T/M/F to reduce long-term costs and improve system performance.

Note 39: Corrected.

Note 40: Agreed. We made changes to the final report accordingly.

                                                    53
Note 41: EPA did not agree with our conclusion, stating that it can analyze existing data submitted by
States, but that data was not available at the time of our review to do this analysis. This implies that
EPA in the future, will be able to analyze such data and report results to Congress. As
Recommendations 4(b) and 5(c) indicate, EPA should begin setting up a framework to review available
data, as well as identify data gaps, and determine how it will report results to Congress. We have not
changed our conclusion in the final report.

Note 42: We do not agree with EPA’s assessment. State budget problems could and do impact how
States will spend resources, including for such programs as capacity development. In fact, two States
(Arizona and Illinois) specifically mentioned budget constraints affecting implementation of capacity
development when they responded to the draft report.

Note 43: Agreed. We made changes to the final report accordingly.

Note 44: The purpose of providing this information is to demonstrate the needs that small systems have
for capacity development assistance, and not to imply that HSNCs are a way to gauge States’ drinking
water problems. Also, as stated in EPA’s response, States’ initial capacity development efforts have
focused on those systems who are the “ ‘worst of the worst’... many of which have been in and out of
compliance for years and may resist State attempts to provide assistance.” These systems would be
HSNCs; therefore, the information in our report is relevant.

Note 45: Of the total number of HSNCs for 2002 (4,752 systems), 4,281 of those systems were
small.

Note 46: We paraphrased this information from the 1996 Amendments, Section 3(2), which stated:
“because the requirements of the Safe Drinking Water Act (42 U.S.C. 300f et seq.) now exceed the
financial and technical capacity of some public water systems, especially many small public water
systems, the Federal Government needs to provide assistance to communities to help the communities
meet Federal drinking water requirements....”

Note 47: We obtained this information from EPA’s web site, at
www.epa.gov/OGWDW/kids/treat.html. This information was provided to give the general reader an
understanding of the drinking water process.

Note 48: The purpose of providing this information was solely to give the reader an understanding of
the value of DWSRF and the capacity development program, and to illustrate the important
responsibility that EPA and the States have to ensure adequate strategy implementation.

Note 49: Corrected.

Note 50: Agreed. Because of editorial considerations, this information is not presented in the final
report.


                                                   54
Note 51: Agreed. Because of editorial considerations, this information is not presented in the final
report.

Note 52: EPA’s information is incomplete. We made a second visit to Illinois in May 2002, and met
with OGWDW officials in August 2002. We obtained additional information regarding performance
measurement in October and November 2002. Therefore, field work completion is stated correctly as
November 2002.

Note 53: During our evaluation, we did not have any contradictory statements to the one made by the
Capacity Development Coordinator. We have emphasized in the report that this is an early
implementation evaluation, and our observations concerning performance measurement are based on the
fact that EPA has yet to develop any national capacity development goals.

Note 54: This is our conclusion, based upon our analyses of various data collection efforts. In EPA’s
response, EPA did not question this information specifically.

Note 55: This 2001 publication does not indicate that it was performed as a followup to the 1997
publication.

Note 56: EPA misunderstood our point that States could potentially lose out on the use of funds if they
are not sufficiently implementing their capacity development strategies. While States may have expended
only $30.83 million on capacity development activities, the fact remains that EPA’s annual withholding
determinations for fiscal 2001-2003 could have impacted a total amount of $359 million of DWSRF
funding to States.

Note 57: This is our conclusion, based on our evaluation of the design and early implementation of
States’ capacity development programs, and the supporting evidence presented in Chapter 3 of the draft
report.

Note 58: The reason we emphasize sanitary surveys is because the States selected for review rely
heavily on this drinking water program to gather information on T/M/F capacities and to target systems
for assistance. Other drinking water programs were discussed in the draft and final reports, including
operator certification and enforcement. We consider self-assessments to be a tool, not a drinking water
program; therefore, we did not present this information in the report.

Note 59: We do not disagree with EPA’s comments. As stated in Note 45, enforcement is discussed
because this was a program that the sampled six States were using as part of their capacity development
efforts.

Note 60: Agreed.

Note 61: We have corrected language in the report that loan recipients either have or will achieve
T/M/F capacity through their projects.

                                                   55
Note 62: Agreed. Information dropped from the final report.

Note 63: We have added information about Region 7’s comprehensive evaluations, and included, as
Recommendation 3,that all EPA Regions adopt a similar means to assess States’ capacity development
programs.

Note 64: We partially agree with this statement by EPA. While SDWA does not specifically require
EPA to review the reports to the Governors as part of its oversight responsibilities, EPA should look at
reports like these as an opportunity to assess State progress.

Note 65: We believe that information/instructions that were provided to Regions in an informal manner
should be included formally in the capacity development guidance document.

Note 66: While we believe that the Capacity Development Coordinator’s opinion sheds light on the
difficulties faced in designing and implementing the capacity development program, his statement may
give the impression that States should have had funds withheld. We have added clarifying language to
the final report.

Note 67: Generally, the States presented the same issues raised by EPA in its response to our draft
report. Therefore, we did not include the States’ responses in the final report.




                                                   56
                                                                                   Appendix F

                                Report Distribution

Headquarters

   Assistant Administrator, Office of Water (4101)
   Director, Office of Groundwater and Drinking Water (4607)
   Agency Followup Official (2201A)
   Agency Followup Coordinator (2710A)
   Audit Followup Coordinator, Office of Water
   Associate Administrator for Congressional and Intergovernmental Relations (1301A)
   Director, Office of Regional Operations (1108A)
   Associate Administrator for Communications, Education, and Media Relations (1101A)
   Audit Liaison, Office of Chief Financial Officer

Regions

   Regional Water Directors

States

   State Environmental Directors:
       Arizona
       Illinois
       Massachusetts
       Nebraska
       South Carolina
       Washington

Office of Inspector General

  Inspector General (2410)




                                              57
